<html>
<title> - COMPTROLLER GENERAL'S ASSESSMENT OF THE IRAQI GOVERNMENT'S RECORD OF PERFORMANCE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                         [H.A.S.C. No. 110-85]
 
 COMPTROLLER GENERAL'S ASSESSMENT OF THE IRAQI GOVERNMENT'S RECORD OF 
                              PERFORMANCE

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 5, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13




                   U.S. GOVERNMENT PRINTING OFFICE
37-730 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001



                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                         IKE SKELTON, Missouri
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        JO ANN DAVIS, Virginia
ROBERT ANDREWS, New Jersey           W. TODD AKIN, Missouri
SUSAN A. DAVIS, California           J. RANDY FORBES, Virginia
RICK LARSEN, Washington              JEFF MILLER, Florida
JIM COOPER, Tennessee                JOE WILSON, South Carolina
JIM MARSHALL, Georgia                FRANK A. LoBIONDO, New Jersey
MADELEINE Z. BORDALLO, Guam          TOM COLE, Oklahoma
MARK UDALL, Colorado                 ROB BISHOP, Utah
DAN BOREN, Oklahoma                  MICHAEL TURNER, Ohio
BRAD ELLSWORTH, Indiana              JOHN KLINE, Minnesota
NANCY BOYDA, Kansas                  CANDICE S. MILLER, Michigan
PATRICK J. MURPHY, Pennsylvania      PHIL GINGREY, Georgia
HANK JOHNSON, Georgia                MIKE ROGERS, Alabama
CAROL SHEA-PORTER, New Hampshire     TRENT FRANKS, Arizona
JOE COURTNEY, Connecticut            BILL SHUSTER, Pennsylvania
DAVID LOEBSACK, Iowa                 THELMA DRAKE, Virginia
KIRSTEN GILLIBRAND, New York         CATHY McMORRIS RODGERS, Washington
JOE SESTAK, Pennsylvania             K. MICHAEL CONAWAY, Texas
GABRIELLE GIFFORDS, Arizona          GEOFF DAVIS, Kentucky
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                Michael Casey, Professional Staff Member
               Stephanie Sanok, Professional Staff Member
                   Margee Meckstroth, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, September 5, 2007, Comptroller General's Assessment of 
  the Iraqi Government's Record of Performance...................     1

Appendix:

Wednesday, September 5, 2007.....................................    43
                              ----------                              

                      WEDNESDAY, SEPTEMBER 5, 2007
 COMPTROLLER GENERAL'S ASSESSMENT OF THE IRAQI GOVERNMENT'S RECORD OF 
                              PERFORMANCE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Saxton, Hon. Jim, a Representative from New Jersey, Committee on 
  Armed Services.................................................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Walker, Hon. David M., Comptroller General, U.S. Government 
  Accountability Office..........................................     5

                                APPENDIX

Prepared Statements:

    Walker, Hon. David M.........................................    47

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Ellsworth................................................    67
    Mr. Murphy...................................................    67
 COMPTROLLER GENERAL'S ASSESSMENT OF THE IRAQI GOVERNMENT'S RECORD OF 
                              PERFORMANCE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                      Washington, DC, Wednesday, September 5, 2007.
    The committee met, pursuant to call, at 10 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning. Today the committee meets to 
receive the testimony of Comptroller General David Walker, an 
old friend, on the status of the government of Iraq's efforts 
to meet the benchmarks put in place in the supplemental 
appropriations act that we passed earlier this year.
    This is the first of several very critical hearings in the 
current status of political and security efforts in Iraq. 
Today's hearing is particularly important as we rely on the 
Government Accountability Office to bring an objective analysis 
of these issues before us. I don't think it will surprise 
anyone who reads the paper to learn that the government of Iraq 
has not met most of the benchmarks.
    In particular, the government of Iraq has met only one of 
eight legislative benchmarks, which does not send the signal 
that the national government of Iraq is working hard at 
reconciliation. These legislative benchmarks address core 
political issues that must be resolved when we look at the 
benchmarks and where we are on them.
    It is important to remember that these 18 measures of 
progress in Iraq did not originate with Congress. In almost all 
cases it was Prime Minister Maliki and its government who 
designated them as important steps to take. If they have been 
able to follow the time line they first proposed, most of the 
political benchmarks would have been completed by March of this 
year. Instead they have only completed one by September. This 
is the fundamental dilemma we face in that country. Our 
soldiers fight hard. They are showing some results. And we 
should take every opportunity to give thanks to them for their 
sacrifice and their work on behalf of our Nation. But, however, 
it doesn't seem to be matched by the government of Iraq.
    When the President announced the surge it was intended to 
improve security to create space for a political process. By 
some measures the heroic efforts of our troops have created 
some space. But there has not been any great political 
progress. We are left asking ourselves why should we expect 
this record to be different in the future and whether further 
American efforts will be of any effect. It is not clear to me 
why we should continue to move ahead with this strategy at the 
cost of American lives and dollars if the Iraqis are not 
stepping forward themselves.
    Over the next week this committee will hold four hearings, 
in which this is the first. To look at Iraq policy and 
hopefully help members come to some agreement as to how we 
should proceed, this hearing is appropriate to go first to 
create a baseline for our future discussions. And I thank Mr. 
Walker greatly for his testimony, not just today, but Mr. 
Walker, you've been very, very kind with your time and your 
advice on previous occasions. We appreciate it.
    Before I turn to the gentleman from New Jersey, Mr. Saxton, 
my friend, for remarks he would like to make, let me make one 
administrative comment. If it becomes clear during the course 
of the hearing that some of this discussion should occur in a 
closed session, I am prepared to adjourn the hearing early at 
12:30 so we can meet for a classified briefing with the 
Government Accountability Office (GAO) at that time in Room 
2212. I hope we can keep the discussion open if we can. But if 
we must adjourn, if members feel that we must, we will just 
have to do it.
    So again, David Walker, thank you so much for being with 
us. Mr. Saxton.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE FROM NEW JERSEY, 
                  COMMITTEE ON ARMED SERVICES

    Mr. Saxton. Thank you, Mr. Chairman. And I want to thank 
the Honorable David Walker for being with us here today. He has 
done a great professional job that we always expect and that he 
always does. I want to start by saying that while it is 
important that we continue to assess the progress being made in 
Iraq, I have some concerns about the hearing this morning. 
First, the benchmarks were put in place to enable us to assess 
the progress being made in Iraq. However, the mandate given to 
the GAO was to report on whether the benchmarks had been met. 
Those are two different things. By solely examining whether 
each benchmark was achieved, without considering the actual 
progress being made under each area, it appears that this 
hearing has been set up with a goal of providing a negative 
picture by failing to accurately reflect the current activities 
on the ground in Iraq.
    Second, there are no Administration officials here to 
provide the complete story on the GAO report card.
    And third, almost daily there has been more and more 
positive news being reported on the progress being made in 
Iraq. And yet today we will be turning a blind eye, or at least 
it appears to me that way, to this progress, which is very 
concerning to me.
    On the intent of the benchmarks, the first point that I 
raised earlier this year--Mr. Chairman, as you correctly 
pointed out, Congress mandated a series of progress reports to 
gauge the Iraqi government's performance on a variety of 
benchmarks. Some benchmarks, as you also pointed out, Mr. 
Chairman, such as enacting legislation on de-Baathification, on 
amnesty, on the military disarmament program, came from the 
Iraqi's own national reconciliation plan. Still other 
benchmarks, such as forming a constitutional review committee, 
completing a constitutional review itself, passing legislation 
for equitable distribution of hydrocarbon resources, and 
providing three trained and ready Iraqi brigades to support the 
Baghdad security plan originated with the Iraq Prime Minister 
Nouri al Maliki. These were all Iraqi goals, and they are 
today.
    The supplemental appropriations act, Public Law 110-28, 
later outlined a total of 18 benchmarks, but set no deadlines 
for the Iraqi government. Instead Congress mandated that the 
Administration assess Iraqi progress on the benchmarks so that 
we will be informed as we possibly could be about the 
political, economic, and military efforts underway and the 
trends associated with them.
    The President's interim assessment in mid-July stated that 
the Iraqis had made progress on eight benchmarks and 
unsatisfactory progress on another eight. It further stated 
that as of mid-July it was too soon to measure the progress on 
two measures, saying that the prerequisites for legislation on 
both amnesty and a strong militia disarmament program were not 
yet present.
    But now today, interestingly enough, Congress has required 
the Comptroller General to determine whether or not the Iraq 
government has achieved 18 benchmarks. That was never the 
intent. I say interestingly enough because the legislation set 
no deadlines. And of course the task force before Mr. Walker 
was different than that of the Administration. Whereas the 
President was to provide an interim report in July and a final 
report in September, an assessment of progress toward meeting 
the benchmarks, the Comptroller General was to assess by 
September 1st whether the Iraq government had achieved these 
benchmarks; a yes or no, pass or fail grade.
    It is interesting that the Administration's task was to 
report progress, while the GAO's task was to report a report 
card, and that the GAO report card was due two weeks before the 
second progress report. Moreover, I wonder about the fact that 
Mr. Walker appears before us today in this public setting and 
for the record to discuss his report on how it differs from the 
President's assessment. And yet as I pointed out before, no 
Administration witnesses are here to provide their views or 
comment on the GAO report card. It seems to me that such a one-
sided hearing merely provides a forum for political rancor and 
rhetoric and not for an open public debate on how one can 
define progress in Iraq. And that brings me to the question of 
what these benchmarks actually mean and whether they will 
accurately reflect activities on the ground. Putting aside the 
discussion of whether Congress was seeking positive Iraqi 
government trends toward political, economic, and military 
goals or the achievement of those objectives, I can't help but 
feel that trying to boil down the establishment of the new 
nation to 18 individual measures, many of which are subjective 
and not at all interrelated, misses the point. To be accurate, 
the military surge which reached full strength in mid-June is 
working. General Petraeus and others have told us that there 
have been positive developments, such as decreased ethno-
sectarian violence in Baghdad, increased civilian cooperation 
with tip lines and more caches of weapons discovered and 
destroyed. And attacks in Anbar Province are at a two-year low 
thanks in large part to the growing momentum of the bottom-up 
cooperation among the local tribal leaders, which has knocked 
al Qaeda and other outside influences back on their heels.
    We hear daily reports. Just this morning CBS reported, let 
me quote, CBS, Baghdad, Iraq, one week before General David 
Petraeus is expected to give his report on U.S. progress in 
Iraq, CBS Evening News anchor, Katie Couric says that she has 
already seen dramatic improvements in the country. We hear so 
much about things going bad, but real progress has been made 
there in terms of security and stability, Couric said on 
Tuesday. I mean, obviously, infrastructure problems abound, she 
says, but Sunnis and U.S. forces are working together. They 
banded together because they had a common enemy: al Qaeda. 
Couric traveled to the City of Fallujah and Anbar Province, 
which I might add some of my colleagues have done with similar 
reports, which U.S. forces entered in April 2003 and again in 
November 2004. That is the same city, she says, in house-to-
house fighting American forces uncovered nearly two dozen 
torture chambers. They are no longer there. We found numerous 
houses also where people were just chained to the wall for 
extended periods of time, U.S. military intelligence officer 
Major Jim West said back on November 22, 2004. The face of 
Satan was there in Fallujah. I am absolutely convinced it was 
true, said Marine Lieutenant Colonel Gareth Brandl. Couric went 
on, It is also the city where four American military 
contractors were set on fire, mutilated, and hanged from a 
bridge by insurgents. Now today Fallujah is considered a real 
role model for something working right in Iraq, Couric said. 
Reportedly we have even seen this cooperation spread to the 
Diyala Province and outskirts of Baghdad.
    I find it interesting how 18 benchmarks have fallen far 
short of providing the accurate measure of important Iraqi 
progress over the last few months. Progress that many of us 
have remarked upon as stability spreads due in large part to 
the so-called bottom-up efforts of our soldiers, Iraqi 
citizens, and our leaders the Sheikhs. If our existing 
congressionally mandated yardsticks cannot reflect the positive 
gains, we must really start to question the value of these 
benchmarks.
    It took our own Nation nearly a decade to evolve from the 
Articles of Confederation to the U.S. Constitution, and through 
the amendment progress we are still perfecting it. It took 
Germany, Japan, and South Korea even longer to recover from 
wars and firmly establish their stable institutions of 
government. And none of these nations face the challenges that 
the Iraq government is tackling. None of them had a major 
terrorist group fermenting violence and unrest in their 
borders. None of them had regional actors providing arms, 
manpower, and ideological support for active insurgencies. To 
my knowledge, none of them had such an imbalance of vulnerable 
natural resources.
    At the end of the day our Nation must decide whether to 
pursue victory in Iraq and, if so, at what cost. Today's 
hearing will not answer these questions. But in acknowledging 
that we cannot determine the U.S. direction forward based 
solely on individual subjective objectives imposed by another 
sovereign nation, I do hope to better gain an understanding of 
the things to help me consider more fully our available options 
from a strategic perspective, what are our overall trends on 
the Iraqi and on the political system, on the economic system, 
on the anti-terror and counterinsurgency fronts.
    Mr. Chairman, once again I believe this is an important 
topic, and I look forward to our witness testimony. Thank you, 
sir.
    The Chairman. I thank the gentleman from New Jersey. Let me 
mention to the members, it is impossible to read the chart that 
is before us. But if you will look on page four of the 
testimony and charts thereafter, you will be able to follow the 
benchmark testimony much better. I might point out that the 
gentleman before us is the chief of the GAO, which is, and I 
will reiterate, the independent arm of the Congress of the 
United States. Mr. Walker, thank you for being with us.

 STATEMENT OF HON. DAVID M. WALKER, COMPTROLLER GENERAL, U.S. 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Walker. Thank you, Chairman Skelton, Mr. Saxton. It is 
a pleasure to be before the House Armed Services Committee 
again. Today I am pleased to appear to discuss GAO's report on 
whether or not the government of Iraq has met 18 benchmarks 
contained in the U.S. Troop Readiness, Veterans Care, Katrina 
Recovery, and Accountability Appropriations Act of 2007. This 
act required GAO to report on September 1, 2007, the status of 
the achievement of these benchmarks as of that date.
    Consistent with GAO's core values and our desire to be fair 
and balanced, we used our independent and professional judgment 
to consider and use a partially met rating for some of these 
benchmarks. We felt that it was inappropriate in certain 
circumstances to just use ``met'' or ``not met''.
    Furthermore, consistent with our independent and 
professional judgment, we also provided commentary in order to 
provide contextual sophistication with regard to these 
benchmarks. It is consistent with Chairman Skelton's comments, 
our understanding that Congress wanted to use this as a 
baseline for us to be able to assess progress moving forward, 
and we have attempted to do our job accordingly.
    In comparison, the act requires the Administration to 
report on whether satisfactory progress is being made toward 
meeting these benchmarks. And Mr. Saxton is correct, that there 
is a fundamental difference between what we were asked to do 
and what the Administration was asked to do. I might, however, 
also note that progress is a highly subjective issue. And by 
definition one would expect that there would be a better rating 
that would be achieved if one solely focused on progress. In my 
opinion, you need to look at both. You need to look at where do 
we stand as of a point in time and what progress is being made, 
and you need to consider the source. I think that is important.
    Let me state at the outset that our independent and 
professional assessment on where we stand on these 18 
benchmarks, or where we stood as of the end of August, should 
not diminish in any way, shape, or form from the courageous 
efforts of our military and those of our coalition partners. 
They are making a difference, they are doing their job.
    To complete this work we reviewed U.S. agency and Iraqi 
documents, and we interviewed officials from the Department of 
Defense, State, and Treasury; the Multi-National Force Iraq and 
its subordinate commands; the Defense Intelligence Agency; the 
Central Intelligence Agency; the National Intelligence Council; 
and the United Nations. These officials included, among others, 
Ambassador Ryan Crocker and General David Petraeus. We made 
multiple visits to Iraq in 2006 and 2007, most recently from 
July 22, 2007 to August 1, 2007. We obtained information from 
the Pentagon up until August 30, 2007. We asked for data 
through the end of August. We had data through August 15th, but 
we did not receive data through the end of August. Our analysis 
was enhanced by approximately 100 GAO Iraq-related reports and 
testimonies that we have completed since May of 2003. As the 
chairman mentioned, all of these boards are in your testimony, 
and I would commend you to take a look at the testimony if you 
have difficulty reading this.
    First, I think it is important to understand the origin of 
the benchmarks. The origin of the benchmarks are not the United 
States Congress, and they are not the United States Government. 
The origin of the benchmarks are overwhelmingly from the Iraqi 
government. Going back to June of 2006 and reaffirmed in 
subsequent statements by Prime Minister Maliki of Iraq in 
September 2006 and January 2007, the commitments on these 
benchmarks were most recently stated in a May 2007 
international compact for Iraq.
    The second board, if we can, as of August 30, 2007, based 
upon our independent and professional assessment, we believe 
that the Iraqi government had met three, partially met four----
    The Chairman. Pardon me. That would be on page six of the 
testimony before us, because it is impossible to read the 
chart.
    Mr. Walker. Sorry about that, Mr. Chairman. Some of those 
in the front row can read it. But I agree, when you are back 
there up on the top of the dais it is tough, so that is why we 
put it in the testimony as well. But I think the key is that 
the bottom line is based upon our independent and professional 
judgment the Iraqi government, as of August 30, 2007, had met 
3, partially met 4, and did not meet 11 of the 18 benchmarks. 
If you want to break that down by the three categories, you 
will find that they had met one, partially met one, and not met 
six in the legislative area. On the security area they had met 
two, partially met two, and not met five in the security area. 
And in the economic area they had partially met one of one in 
that area. So that is how it breaks down from that perspective. 
This chart shows our summary judgment and provides commentary.
    The next board, and also contained in your testimony, notes 
information with regard to legislative goals. As I mentioned--
--
    The Chairman. Excuse me, Mr. Walker. That would be page 
eight of our handouts.
    Mr. Walker. Thank you, Mr. Chairman. There are eight 
legislative goals. And as you can see of the eight, the 
government had met one of the eight as of August 30th; namely, 
the rights of minority political parties and Iraq's legislature 
protecting those rights. The government also partially met one 
benchmark to enact and implement legislation on the formation 
of regions. This law was enacted in October 2006, but it will 
not be implemented until April 2008.
    Further, the government has not enacted legislation on de-
Baathification, all revenue sharing, provincial elections, 
amnesty, and militia disarmament.
    Now, with regard to the next board, which--Mr. Chairman, if 
you could help--which page that might be on your testimony, 
because I have yesterday's from a different hearing.
    The Chairman. That will appear on page 10 of the handout 
before us.
    Mr. Walker. Thank you, Mr. Chairman.
    With regard to security, two of nine security benchmarks 
have been met. Specifically Iraq's government has established 
various committees in support of the Baghdad security plan and 
established almost all of the planned joint security stations 
in Baghdad. The government has partially met the benchmarks of 
providing three trained and ready brigades for Baghdad 
operations. And also eliminating safe havens for outlaw groups, 
they partially met that. Five other benchmarks have not been 
met. The government has not eliminated militia control of local 
security, eliminated political intervention in military 
operations, ensured that even-handed enforcement of the law is 
achieved, increased Army units capable of independent 
operations, or ensured that the political authorities made no 
false accusations against security forces. It is unclear 
whether sectarian violence has decreased, a key security 
benchmark. That is a subset of one of the 18 key benchmarks. 
And I know there is a strong difference of opinion between us 
and the military on that, and I am happy to answer questions on 
that. Frankly it is difficult to measure perpetrators' intents. 
It is difficult to know how much civilian violence is sectarian 
related and how much isn't. And so, therefore, we have in our 
non-classified report the overall violence trends which we do 
feel comfortable with and which are used by a variety of 
parties.
    Next it represents the overall situation with regard to 
violence historically. And as you can see in looking at this 
chart, there was a decrease in overall violence in July. The 
August data has not been released yet for public dissemination, 
but it will be hopefully in the near future. I think you can 
see that there was a decrease in July. That is encouraging. At 
the same point in time one month does not a trend make. 
Furthermore, the level of violence in July of 2007 was roughly 
equivalent to the level of violence in February of 2007. And as 
you all know, next month--pardon me, this month, later this 
month begins Ramadan. And historically there has been an 
increase in violence during the Ramadan period. Hopefully that 
won't be repeated again this year. And historically there has 
been somewhat of a decrease in violence right before Ramadan. 
Again, hopefully we will see a change going forward, but only 
time will tell.
    Next please. The next chart shows where things stand with 
regard to our overall assessment as of August 30th.
    The Chairman. That is on page 11 of our handout.
    Mr. Walker. Thank you, Mr. Chairman. The next chart shows 
where our assessment as of August 30, 2007, how it compares 
with the Administration's July assessment. Several key points 
here. Number one, ours is of August 30th; the Administration's 
was as of July. As you all know, the Administration is set to 
report again within the next week with regard to where things 
stand now.
    Second, as Mr. Saxton properly pointed out, ours is based 
upon whether or not the standards have been met, partially met 
or not met, whereas the Administration's is based upon 
progress, whether or not they believe satisfactory progress has 
been made. I think you need to consider both. At the same point 
in time I think you should note that while there are 
differences between our assessment and the Administration's, 
only on one of these 18 is there a significant difference. By 
that I mean we said ``not met'' and they said ``met''. Only 
one. And that is the first one dealing with the Constitutional 
Review Committee and completing the constitutional review. I 
don't know what their new assessment is going to say. I would 
hope and expect that you will probably see better ratings in 
some of these areas from the Administration in September than 
July, but I don't know that for a fact.
    I will say this: The GAO represents the only independent 
and professional assessment that the Congress will receive on 
these 18 benchmarks. Let me restate that. The GAO represents 
the only independent and professional assessment that the 
Congress will receive based upon these full 18 benchmarks.
    So in conclusion, as of August 30, 2007, the Iraqi 
government met 3, partially met 4 and had not met 11 of the 18 
legislative security and economic benchmarks. Importantly, in 
late August Iraq senior Shi'a, Sunni Arab, and Kurdish 
political leaders signed a unity accord signaling efforts to 
foster greater national reconciliation. The accord covered 
draft legislation on de-Baathification reform and provincial 
powers laws, as well as setting up a mechanism to release some 
Sunni detainees being held without charges. However, the 
polarization of Iraq's major sects and ethnic groups and 
fighting among Shi'a factions continues to diminish the 
stability of Iraq's governing coalition and its potential to 
enact legislation needed for sectarian reconciliation. 
Hopefully these agreements will ultimately result in laws, but 
only time will tell.
    As the Congress considers the way forward in Iraq, in our 
view it should balance the achievement of the 18 Iraqi 
benchmarks with military progress and homeland security foreign 
policy and other goals of the United States. Future 
Administration reports on the benchmarks will be more useful to 
the Congress if they clearly depicted the status of each 
legislative benchmark, provided additional quantitative and 
qualitative information on violence from all relevant U.S. 
agencies, and specified the performance and loyalties of Iraqi 
Security Forces supporting coalition operations. It is not 
enough just to look at their readiness. You also have to look 
at their reliability. Both are important in order to ascertain 
their ability to effectively support the coalition.
    Last, let me say that clearly some progress has been made 
in al Anbar province and parts of Baghdad, clearly, as a result 
of the surge. The question is why, is it transferrable, is it 
sustainable? And the real question for this Congress is not 
what has happened in the past, but where do we stand now and 
what is the proper way forward, including what goals should we 
be trying to achieve and what role should our military and 
other key players within the government play to try to help 
achieve those goals.
    Thank you, Mr. Chairman. I would be happy to answer 
questions of the members.
    [The prepared statement of Mr. Walker can be found in the 
Appendix on page 47.]
    The Chairman. Mr. Walker, thank you. Thanks to your staff 
for the excellent work that you have presented us today. I will 
just ask one question, then turn to the gentleman from New 
Jersey.
    Mr. Walker, there has been some dispute about the level of 
violence in Iraq. And we have heard certain press claims 
sectarian violence against civilians is down, and your report 
seems to disagree with that. The latest unclassified DIA data 
that we have also seems to disagree with that.
    What is the source of the confusion regarding the violence 
against civilians? What is really going on? What standards 
should we look at? Where do we go from here?
    Mr. Walker. Well, first there are several sources with 
regard to overall violence. And we have unclassified 
information that is included in our report, and we showed that 
on the board. Whereas you can see that violence, overall 
violence increased up until June, it decreased in July, and we 
will see the August numbers here in the near future. That is 
aggregate violence statistics. And I think they speak for 
themselves. And we are comfortable with those numbers.
    Here is where the disagreement is, Mr. Chairman. To my 
knowledge only MNFI, the Multi-National Force of Iraq maintains 
data on sectarian violence. That is a subset of overall 
violence. And as one can understand at the outset, it is 
difficult with any degree of certainty and reliability to know 
which of the overall violence relates to sectarian factors and 
which don't. And the MNFI believes that their data shows that 
sectarian violence has gone down. And in fact we were made 
available of some of that data through August 15th. We asked 
for data beyond that. We weren't provided them. We have not 
been able to get comfortable with the methodology that MNFI 
uses to determine sectarian violence. We are comfortable with 
the methodology that is used to determine overall violence. We 
think it is important that you consider both.
    But let me just reinforce this, that with regard to 
sectarian violence, benchmark number 13 says, ``reducing the 
level of sectarian violence in Iraq and eliminating militia 
control of local security.'' There is agreement that militia 
control of local security has not been eliminated. There is a 
difference of opinion, a strong difference of opinion, as to 
whether or not sectarian violence has decreased. So the only 
area that I am aware of today where there is a strong 
disagreement between what we are reporting and what the 
military is saying is the sectarian violence portion of goal 
13. That is it. It is not that there aren't other disagreements 
that exist, but that is the only one that I am aware of where 
there is a significant difference of opinion, and hopefully I 
have explained to you why we reached the judgment we did.
    The Chairman. Mr. Walker, thank you very much. Mr. Saxton.
    Mr. Saxton. Thank you, Mr. Chairman. First, let me try to 
be pleasantly disagreeable on one point that you made, and I 
again appreciate the great job that you have done in preparing 
to come here this morning. But in your assertion that you are 
the only independent and professional reporting service that we 
will hear from, I would beg to differ. I understand that the 
military is not independent, but they certainly are 
professional. And I think the same could be said about our 
intelligence service, so with that little amendment.
    Mr. Walker. Mr. Saxton, I agree they are professional, but 
they are not independent. And just as in corporate America, the 
reason you have auditors is do you want to just rely upon the 
people who are responsible for executing? They are totally 
professional, no question about that, and you definitely ought 
to consider their opinion, but they are not independent.
    Mr. Saxton. We agree.
    Mr. Walker. Thank you.
    Mr. Saxton. Let me just follow up on the chairman's 
question. In recent weeks it seems to me that almost every 
expert, whether we consider people like General Petraeus or 
people in think tanks around town like Michael O'Hanlon, have 
remarked upon the decline in sectarian violence. Your report 
notes the level of violence in Iraq is unchanged. I am going to 
read here a list of statistics put forth, as you correctly 
pointed out, by the Multi-National Force of Iraq that 
demonstrate, at least to a large extent, that sectarian 
violence, in my opinion, has gone significantly down. And I 
wonder if you can explain, given the following information, the 
GAO report continues to state that the benchmark for reducing 
sectarian violence has not been met.
    First, throughout all of Iraq, since the height of the 
ethno-sectarian violence in December of 2006 until the end of 
August 2007 the overall number of civilian casualties killed 
and wounded has dropped according to these numbers by 71 
percent.
    Second, ethno-sectarian violence in all of Iraq are down to 
less than one-half of the levels at the height of the violence 
last December.
    Third, attacks of any type in the Anbar province have gone 
from a high in October of 2006 of more than 1,350 per month to 
fewer than 250 per month today. Overall, incidents of violence 
against any target in Iraq are down from a high of 1,700 per 
week in mid-June 2007 to fewer than 950 a week today. High 
profile attacks, such as car bombs and suicide vest attacks, 
are down in March 2007 by more than 170 per month to 88 a month 
in August.
    So it seems clear to me that if one looks at these numbers, 
which you say are the only ones that exist, one would have to 
come to a different conclusion than you did.
    Mr. Walker. Thank you, Mr. Saxton. Let me be clear. The 
data that we are using is unclassified data that is in the 
report. And it is based upon a methodology that we are 
comfortable with. And it therefore provides a basis to get a 
sense for overall trends, you know from month to month and over 
time.
    Let me also be clear that the information with regard to 
sectarian violence is classified. We have some information in 
our classified report talking about certain issues there. Let 
me acknowledge that there has been a decline in what is being 
reported there without getting into specifics. But let me also 
reinforce that we are not comfortable with the methodology that 
is being used. I am not saying the numbers are right or wrong. 
I am saying we are not comfortable with the methodology. I 
mean, we in our report say, look, here is what we did. We have 
clearly defined, consistently applied, transparent criteria for 
determining whether something is met, not met or partially met. 
You don't see the same thing with regard to some of these other 
evaluations.
    And last, let me just reinforce that there is a significant 
difference of opinion between us and the military on the 
sectarian violence. And it is because we can't get comfortable 
with their methodology. We are not saying they are wrong. We 
are saying we can't get comfortable that they are right.
    But the key is this. Sectarian violence is only one of two 
criteria under benchmark 13. The other one is eliminating 
militia control of local security. There is agreement that that 
has not been met. So arguably the military might like to say, 
gee, maybe we should have given a partially met for number 13. 
That might be their argument. You can talk to General Petraeus 
about that, because they clearly agreed that eliminating 
militia control of local security is not met.
    Well, that doesn't really change our overall assessment 
very much, because we are assessing 18 benchmarks. But you are 
correct in saying there is data out there that shows a decline 
in sectarian violence. It is classified. And our concern is we 
are not saying they are wrong; we can't get comfortable that 
they are right. And therefore we are using the data that we are 
more comfortable with.
    Mr. Saxton. There is obviously evidence that you can't get 
comfortable with them, and there is also evidence that they 
can't get comfortable with you. I am reading here the first 
paragraph of today's Washington Post story headlined ``Military 
Officers in Iraq Fault GAO Report''. The first paragraph says, 
``A bleak portrait of the political and security situation in 
Iraq released yesterday by the Government Accountability Office 
sparked sharp protest from top military command in Baghdad 
whose officials described it as flawed and factually 
incorrect.'' That demonstrates a level of uncomfortability on 
the other side as well.
    Mr. Walker. But Mr. Saxton, I think two things: One, it is 
not uncommon for those who are being held accountable to have a 
problem. Second, I think if you read the rest of the article, 
which hopefully you have had a chance to do or will, I think 
you will find that the one area of significant disagreement is 
what we have already talked about. I mean, they weren't 
attacking the overall thing. They said they have a strong 
difference of opinion on sectarian violence. I respect that 
difference of opinion. I understand why they have a difference 
of opinion. I acknowledge that their data shows a decline 
without getting into details. I am telling you that we couldn't 
get comfortable with their methodology. I am not saying they 
are wrong. We couldn't get comfortable that they are right.
    Mr. Saxton. Thank you. Mr. Chairman, I have one more short 
question, and then I will relinquish my time. In any situation 
as complex as this situation that exists in Iraq, we find 
things that happen from time to time that are different than we 
might have expected. And it seems to me that it is fairly 
important that we measure those events in terms of progress as 
well. And I would submit for your consideration and for your 
comment that one of the events or one set of events that has 
occurred is something that has been referred to as ``bottoms-up 
progress'', meaning that Iraqi citizens, particularly in Anbar 
province and other places, have done some things that we didn't 
expect them to do and therefore were not made part of the 
benchmarks. The fact that the leadership in Anbar has forsaken 
al Qaeda and decided to help us is one of those situations 
which I don't believe we are accurately measuring. Would you 
comment on that?
    Mr. Walker. Yes, I will. There is a long-standing phrase in 
the region of the world that we are talking about that says 
``the enemy of my enemy is my friend''. The question is for how 
long. There is absolutely no question that progress has been 
made in al Anbar province. There is absolutely no question that 
there have been some dramatic changes in al Anbar province. 
There is absolutely no question that some progress has been 
made in parts of Baghdad. The question is why? Is it 
transferrable? Is it sustainable? Those are key questions.
    Al Anbar, as you know, is not Baghdad; it is west of 
Baghdad. It is roughly about 15 percent of the population of 
Iraq, and it is predominantly Sunni. And it was an area where 
there was a disproportionate amount of al Qaeda activity. And 
there have been significant changes there. No question about 
it.
    Mr. Saxton. But do you assume that it is temporary?
    Mr. Walker. I don't make any such assumption. No, I don't 
at all. In fact it is my understanding, Mr. Saxton, that what 
Congress expects it will do is that this will be a baseline and 
that you will get periodic progress reports from the 
Administration and GAO presumably to see how things were done 
over time. And I think we can and we will consider, from a 
standpoint of contextual sophistication, things beyond just the 
specific language of the statute. We did it this time. The 
statute didn't say that we could give a partially met rating. 
But I felt that given our core values and professional 
standards it wouldn't have been fair and balanced not to do 
that, and so that is why we did that.
    Mr. Saxton. Thank you very much, Mr. Walker.
    The Chairman. I thank the gentleman. I remind my members we 
are now under the five-minute rule. Mr. Spratt.
    Mr. Spratt. General Walker, thank you for your testimony 
and thank you for your report. We need an honest broker, and 
you provided that role. The purpose of the surge is buy time 
and space for the political authorities to work out their 
differences and complete certain tasks that are essential to a 
functional government. That is what the President said in 
February when he announced his plan. That is what General 
Petraeus has said repeatedly. Admiral Mullen, when he was 
testifying before his confirmation as Chairman Joint Chiefs, 
said, ``Look, no amount of troops and no amount of time is 
going to resolve this situation unless there is a political 
solution.''
    So that is the purpose of the surge. If the surge is 
beginning to work militarily, the question is: Why are the 
Iraqis not resolving their problems politically, if it is 
working militarily? Is it because the benchmarks are 
unrealistic, unfair, more than one can reasonably expect? In 
that respect, remember where we derive these benchmarks--from 
speeches made by Maliki and President Bush and others. Or is it 
because the surge is working militarily, but politically the 
government of Iraq is dysfunctional, not interested or not 
committed to the whole process? Or is it because militarily the 
results have not been dramatic enough and substantial enough 
yet to effect a political solution?
    Mr. Walker. Well, let me give you a comment. First, you are 
correct that the purpose of the surge is to provide breathing 
room or space for the representatives, the elected 
representatives of the Iraq people to make political progress. 
And while the surge has had some impact on the ground from a 
military standpoint, as I have acknowledged, we have yet to see 
significant progress from a political standpoint. Now, whether 
or not there will be prospectively, only time will tell. Why 
there hasn't been progress--it is a very complex situation in 
Iraq. There are 60 percent Shi'a, but only 60 percent. The 
Shi'a don't look at it the same way. There are subsets of the 
Shi'a. There are 20 percent Sunni, there are 20 percent Kurds. 
The Sunni under Saddam Hussein ruled the country. They are 20 
percent, a minority. So there are different groups with 
different interests who may be doing a scenario analysis of how 
things might come out for their group, depending upon what 
might happen going forward.
    I think the bottom line is this. In order to try to be able 
to provide stability and security over time, you have got to 
have more political progress. That was the primary purpose of 
the surge. So far it hasn't worked, but we will see whether it 
does in the future.
    Mr. Spratt. Are the benchmarks, in your opinion, 
unrealistic, ineffective, unfair, the wrong measures of 
progress?
    Mr. Walker. My view is that the benchmarks is what we were 
asked to do, which we did. But I do believe that as conditions 
change over time one needs to be able to keep that in mind and 
not be wedded solely to these benchmarks. And you want to 
understand what is going on with these benchmarks, but you also 
want to consider subsequent events. You want to consider other 
things that would be a supplement to, but not a substitute for, 
these benchmarks.
    Mr. Spratt. One of the benchmarks originally used, set by 
ourself, was oil production, and another was electricity 
production. And looking very basically at the economy, the way 
we felt in 2003 and 2004 was that this would be the way we 
would be judged by the Iraqi people. We don't have a benchmark 
to that effect.
    Do you think we should have a basic economic benchmark to 
determine whether or not the economy is getting back on its 
feet, beginning to be productive again?
    Mr. Walker. I think it is important to consider whether or 
not progress is being made in areas that are important to the 
daily lives of Iraqis; safe streets, clean water, reliable 
electricity, et cetera, et cetera. These are fundamental things 
that any citizen in any country would care about. And they 
also--if progress is made there, it can help gain support for 
the government because, people are feeling a difference in 
their daily lives.
    Mr. Spratt. Thank you very much.
    The Chairman. I thank the gentleman. The gentleman from New 
York, Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman. As always we all 
deeply appreciate yours and GAO's work and study, this report 
included. Let us talk just a second, as a follow-up to Mr. 
Spratt's comments, about the current benchmarks, how they are 
structured, et cetera. I would tend to agree with you, it is 
difficult to assess how progress is being made if you don't 
consider the day-by-day lives of the Iraqi people. But beyond 
that, are there any other changes, additions, amendments to 
this process, as you have been charged by Congress, that you 
would like to see enacted?
    Let me give you an example. You commented about benchmark 
13, that there are in fact two pretty distinct and important 
components; the first being reducing the level of sectarian 
violence, and the second being the lessening of and eliminating 
militia control in local security. And that even, I guess the 
way you put it, even if sectarian violence, if you agreed on 
data and there was a substantial reduction, it still wouldn't 
be a met benchmark because of the militia component. Should 
those be two different benchmarks that you can look at?
    Mr. Walker. I think one of the things that ought to be 
considered is not only whether or not these are appropriate, 
but whether or not you might unbundle some of these benchmarks. 
I also think you ought to think about whether or not there 
ought to be additional benchmarks. For example, what about on 
the foreign policy front? What is being done within the region 
to try to bring the players together to try to help achieve a 
better political solution in Iraq because there are forces 
outside of Iraq that have significant influence in Iraq other 
than us. And, furthermore, another example would be what is 
being done in the international community to try to provide 
more support for capacity building for the Iraqi ministries so 
that they can start delivering results that the people will 
benefit from and care about.
    Now, realistically we are not going to get more support 
from a military standpoint. We have already seen that the 
support is declining for military support. But there is no 
reason that we shouldn't be able to get more international 
support for capacity building as it relates to civilian 
agencies, and they desperately need it. So those would be a 
couple of examples.
    Mr. McHugh. One of the big holdbacks of course has been the 
lack of security that the surge has been attempting to provide, 
and I tend to agree with your comment. The big question is are 
the gains that we have made through this surge sustainable and 
transferrable. I believe the unclassified portion of a recent 
National Intelligence Estimate (NIE) in Iraq said that it is in 
all likelihood with the removal of American forces that those 
factors, those gains could not be sustained. So if we listen to 
the military, or I should say the intelligence communities, 
this is probably an effort that ought to go on for more than a 
few weeks, as it has.
    Let us go back to violence. I understand the uncomfortable 
status that you have with respect to sectarian violence. I just 
got back from Iraq, as I am sure a good number of our 
colleagues have as well, and I was in Fallujah. And I am 
concerned about this discrepancy on data. So let us talk a bit 
about overall, overall incidences of violence. Those two are 
down as well, according to the data.
    Do you disagree with the data, or are you uncomfortable 
with the data with respect to attacks across the board, from a 
high of 1,700, according to the data that we were provided in 
mid-June, to fewer than 960 a week now? That is not classified, 
that is not ethno-sectarian. But is there an agreement at least 
between you and the compilers of these data as to the overall 
violence incidents?
    Mr. Walker. On figure 4, which talks about average number 
of daily enemy initiated attacks again the Coalition, Iraqi 
Security Forces, and civilians, May 2003 to July 2007, we are 
comfortable with that overall methodology. There is other 
information that we have, which may be in the classified 
report, that kind of breaks it down.
    Mr. McHugh. But overall you would agree, as the data that 
we have been provided, that there is a significant reduction in 
overall violence in Iraq since mid-June? I understand that is a 
short period, but that is the period of the surge.
    Mr. Walker. If you just look at the publicly available 
data, which is in my testimony, that goes through the end of 
July. There was a significant reduction between June and July. 
But it is about the same level as February. My view is when you 
are looking at performance, you need to look at three things: 
How do you stand as of a point in time, how are you trending 
and how does it compare from a contextual sophistication as to 
the relevant importance and what is a reasonable amount of 
progress to achieve within a certain amount of time.
    Mr. McHugh. Thank you, Mr. Chairman.
    The Chairman. Thank you. May I interrupt before I call on 
Mr. Ortiz? I am having a difficult time in determining how one 
determines what sectarian violence is. Assume, Mr. Walker, a 
building is blown up, downtown Baghdad, there is no sign or 
claim of who blew it up. How do you say this is sectarian, how 
do you say this is insurgent done, how do you say this is al 
Qaeda done or maybe by some criminals.
    Mr. Walker. That is one of the primary concerns we have, 
Mr. Skelton. If you look at the graphic I just talked about, it 
does break it down between who the attacks are on--Coalition, 
Iraqi Security Forces, or civilians.
    The Chairman. There is no calling card.
    Mr. Walker. Right, correct. And that is one of the reasons 
that we can't get comfortable with the methodology for 
determining what subset of the data that we are comfortable 
with relates to sectarian versus non-sectarian violence.
    The Chairman. Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman. General, thank you so 
much for your report. Progress in Iraq is being measured by 
benchmarks, and according to your report, the Iraqi government 
only met three of those 18 benchmarks. The vendors market is 
not included in what is the benchmarks. The marketplaces where 
they pay them up to $2,500 to open the markets, where they fix 
the stalls because there is a delegation of Americans, 
generals, and politicians coming to see the marketplace. They 
are surrounded by 30,000 troops, helicopters, and airplanes. 
When we go to Iraq, we are not free to go most of the time to 
where we want to go see. They teach us or they show us what 
they want us to see. And I am just wondering, there is a story 
here that came out yesterday in The Post. And I don't know 
whether you saw it or not. The Dora market, where they wanted 
to open up in July and they couldn't, they reconstructed the 
area, and they gave each vendor $2,500. They were selling shoes 
and all kinds of stuff. Why? Because there was a delegation of 
members of Congress and other people coming in. The thing is 
does the United States militarily, particularly the Army, have 
the ability to sustain their current presence and missions in 
Iraq long enough to see a significant change in progress, so 
that the Iraqi government can exist and to be successful 
without a United States presence.
    Mr. Walker. There is absolutely no question that the Army 
is stressed and strained, largely due to our commitment to 
Iraq. But the Army is also trying to accomplish a number of 
other major objectives at the same point in time, 
transformation and a variety of other things. We are doing work 
right now dealing with some of these issues that we will be 
reporting on separately. And I think one of the key questions 
that this Congress needs to consider is everybody wants to win 
in Iraq, but one part of the definition is what does it mean to 
win? What is the definition of winning?
    And second, what is the proper role of our forces, among 
other things, on the ground? And to me there is several things 
that they are doing. And the question is, is all of them 
appropriate? They are fighting al Qaeda, and I think there is 
probably a broad-based agreement we ought to do that. We are 
training Iraqi forces, and there is probably a broad-based 
agreement we ought to do that, although while trying to make 
sure that those forces are balanced and not part of the 
violence problem. But we are also policing the streets of 
Baghdad and other areas. And I think reasonable people can and 
will differ about whether that is a proper role for the U.S. It 
is one thing to provide logistical and intelligence and other 
type of support, air power or whatever, that the Iraqis don't 
have. It is another thing to be on the front line being the one 
policing the streets and we are a foreign force.
    Mr. Ortiz. And the reason I ask this is because when 
members go to Iraq, we want to make sure that we see a 
realistic picture of what is happening, and sometimes we don't. 
And I am not trying to point any fingers at anybody, but they 
showcase a particular area and this is where we go. But when we 
look at readiness, readiness is not only fighting in Iraq. It 
is to be ready to respond to any action around the world.
    I just came back from Germany and Italy visiting our 
troops, and we do have serious problems in Italy and in 
Germany, because we don't have enough troops. Twenty years ago 
we had 200,000 troops in Germany. Today we have 24,000 troops. 
We had 800 bases in Germany. Now we have 14 bases. And I just 
talked to some of the leaders there. We have a serious problem. 
Readiness is not only Iraq. Readiness is being able to respond 
to other parts of the world. We have hot spots all over the 
world.
    I know that my time is running out, but I do hope we have a 
second round, and thank you so much, General, for being with 
us, and maybe you would like to respond.
    Mr. Walker. First, as I said, the Army is stressed and 
strained. We need to make sure that we are making decisions 
based upon current and projected threats. The threat is 
different in Europe today than it was 20 years ago. But we need 
to make sure that we have an adequate number of forces in the 
right places with the right type of support to be able to meet 
current and future credible threats and their issues there.
    The Chairman. Mr. Everett.
    Mr. Everett. Thank you, Mr. Chairman. At the offset, let me 
say that I am uncomfortable, although this is an important 
subject, in both the setting and timing of this hearing, and I 
would like to associate myself with Mr. Saxton's opening 
remarks.
    Having said that, General, thank you for being here. I have 
great respect for the work that GAO normally does. As the 
chairman of investigations also on the Veterans Affairs (VA) 
Committee for many years, I appreciate the great help I got 
from them. I would also say that you are not always right. You 
have got a good record, but you are not always right.
    Let me refer back to your conversations on ethno-sectarian 
violence that you had with Mr. Saxton. And I believe this is a 
direct quote from you: ``Not saying they are wrong but we can't 
be comfortable with their figures.''
    If you are not saying they are wrong, that to me means that 
they could be right.
    Mr. Walker. They could be. And I said that. I said we are 
not saying they are wrong. We are not comfortable they are 
right, but even if they are right with regard to the benchmarks 
that we have, it is one subset of 1 of 18 benchmarks, and our 
overall assessment would not change materially as a result of 
that. Now whether or not that----
    Mr. Everett. Thanks. Thank you.
    Mr. Chairman, I want to yield to Mr. McHugh for the 
remainder of my time.
    Mr. McHugh. Thank you, Mr. Chairman. I thank the gentleman 
for yielding.
    General Walker, just to talk a bit about that, and I 
thought that the chairman's question as a follow-up to my 
discussion about overall violence, it raises a good point.
    Should we bother ourselves, in terms of assessing the 
progress or a lack thereof in Iraq, with trying to separate 
ethno-sectarian violence from just your regular, ordinary, run-
of-the-mill car bomb, whatever that means? Maybe we ought to 
just talk about it overall. Should that be a change in the 
benchmark that would make everybody more comfortable?
    Mr. Walker. I would debate whether or not it makes a lot of 
sense to try to segment sectarian violence. As the chairman 
said, you know, even if somebody left a calling card every time 
something happened, it doesn't mean it is accurate. Alright? I 
mean, I think you need to have data that you can feel 
comfortable with, and it is reasonably reliable data. And 
frankly, you know, how much of a difference does it make why 
somebody was attacked and what the casualties were?
    Mr. McHugh. Mr. Chairman, as the chairman, maybe we could 
consider, with your guidance and leadership, making that kind 
of change, because if that were changed then, as General Walker 
agreed with my earlier comments, we would have seen more than a 
70 percent reduction of overall violence since mid-June. Again, 
not a long-term trend, but its timing with the surge, and we 
wouldn't have to concern ourselves about these semantical 
differences.
    General, let us talk a second about constitutional review.
    When I was in Iraq, we heard from the deputy national 
security adviser to the Iraqi government about what they felt 
was pretty substantial progress, and, in fact, your report 
acknowledged that the benchmark, however, it is not being met. 
They are working toward constitutional review, and it--you 
alluded to that fact.
    Why wasn't that given at least a ``partially met'' rating 
on your scale?
    Mr. Walker. First, we acknowledge that the Constitutional 
Review Committee has been formed, but we also noted that there 
are numerous actions that have to be taken by that 
Constitutional Review Committee and that there really hasn't 
been significant progress with regard to those actions. And so 
our view was that, yes, the Constitutional Review Committee has 
been formed, and we noted that, but there hasn't been enough 
progress made to deserve a ``partially met.''
    Mr. McHugh. That is a very full answer. I appreciate it. 
And that is my only curiosity.
    Mr. Walker. Just because it is not met doesn't mean there 
is no progress.
    Mr. McHugh. I appreciate that.
    You might have a comment about the upcoming Administration 
report. The words you used, you would hope and expect that they 
would show more progress. Can you tell me why you hope and 
expect that?
    Mr. Walker. Over the passage of time, you would hope that 
the actions we are taking are making a difference, and in some 
areas they are. And I would expect that the Administration 
would have a desire to show progress, and then that is why I 
say you have got to consider what they have to say, but they 
are obviously not independent about this.
    The Chairman. Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    Thank you, Mr. Walker, for being here and for your 
assessment of the situation as it exists today.
    One of the things that has been frustrating when we talk 
about progress or lack of progress or perceptions or the 
ability of our military to stabilize Iraq is the fact that the 
insurgents can strike whenever and wherever they want.
    In previous hearings here, we have been told that progress 
has been made in certain parts of Iraq. I can remember Mosul 
and Tikrit being held up as the examples of what we wanted to 
accomplish. This was in a hearing about two years ago. A couple 
of weeks after that hearing, that area was attacked by the 
insurgency, the governor was assassinated, the mayor was 
killed, professors were killed.
    So that has been part of what has been so frustrating with 
this, the inability to really get a good assessment of 
progress, real progress, established progress, which is, I 
think, what you have been talking about in terms of is it real, 
is it sustainable, is it transferable.
    Having said that, one of the benchmarks deals with 
increasing the number of Iraqi Security Forces that are capable 
of operating independently. That is without U.S. forces being 
there to sustain them and support them.
    Since 2003, we have spent over $20 billion to train and 
equip Iraqi soldiers and police officers so that ultimately 
they can have that stand-alone capability.
    Your report states that this goal has not been met and that 
the number of Iraqi units capable of independent action has 
actually decreased. I would ask you to comment on and explain 
why that has been after the amount of money was spent.
    Mr. Walker. Let me just note that you are correct in noting 
that we said that it has not been met and that the number of 
units that can operate independently has declined since March. 
Let me also say that the details of that are in our classified 
report, and it might be better to talk about that during the 
classified session.
    Mr. Reyes. Okay.
    Mr. Chairman, are we having a classified session?
    The Chairman. The question is, are we having a classified 
portion? We can thereafter, you bet.
    Mr. Reyes. Thank you.
    When one of the major problems we face in building up the 
Iraqi Security Forces, as has been mentioned here, not just the 
sectarian violence but also sectarian militia infiltration of 
the armed services, would you be comfortable in discussing the 
infiltration as an issue and as a problem, or would that be----
    Mr. Walker. The only thing I would say is that is a 
concern. It has been. It remains a concern, and I think the 
details would be something that would be more appropriate to 
talk about in a classified briefing.
    Mr. Reyes. Very good. I will reserve until the classified.
    The Chairman. As I mentioned earlier, if there is a 
necessity for classified discussion, we will do that at 12:30, 
Mr. Walker, and I hope that meets with everyone's approval, and 
I realize that will not get through everyone, but that is the 
best we can do.
    Mr. Thornberry.
    Mr. Thornberry. Mr. Walker, I appreciate your skill in 
dealing with the situation where you knew whatever you all came 
out and said was going to be used as political fodder in a very 
intense political debate. You knew you were going to be pushed 
and stretched into all sorts of policy areas beyond the face of 
the document, and I appreciate your ability to try to stick 
with the objective facts you were asked to measure.
    I have been a strong advocate of using objective metrics to 
help as a tool in measuring progress, particularly in areas of 
national security.
    One of the things I realized in trying to do that on the 
Intelligence Committee is it is incredibly hard work to try to 
pick your metric so that it is useful through the passage of 
time so that it is something that can be measured and helps 
point you in a certain direction.
    As I went through these 18 metrics that you were handed, I 
realized the origin of them, but you would not argue that all 
are of equal weight, for example, in trying to determine future 
policy of the United States or the government of Iraq?
    Mr. Walker. I would agree they are not of all equal weight, 
and we didn't try to weight them.
    Mr. Thornberry. It occurs to me this discussion, which has 
been the subject of great controversy about whether sectarian 
violence is going down, is in large measure a function of a 
difficulty in measuring it. Not whether it is or is not going 
down, but how do you know.
    Mr. Walker. That is correct.
    Mr. Thornberry. So, your position is that you can't know 
for sure in a way that is measurable. Doesn't mean it is not 
happening, doesn't mean it is happening, but you can't measure 
it, and therefore you have to give the results that you give.
    Mr. Walker. Right, and I am not sure that those that are 
keeping the statistics can reliably measure it either.
    Mr. Thornberry. I think that is an important point for us 
all to discuss. How do you measure whatever it is you are 
talking about, and how do you assign importance to the 
different things that you are talking about?
    I am struck by that, too, when you look at the legislative 
area. That hits a little close to home for us. You have been a 
tremendous advocate, for example, of this Congress taking 
action to put Social Security on a more stable financial 
footing. If you were to give us a grade about how well we have 
done on that, it would be `not met', right?
    Mr. Walker. It would be failure.
    Mr. Thornberry. Yeah. And using, just as a way of example, 
even if a bill had passed out of the House and a bill had 
passed out of the Senate while you are waiting on a conference 
committee, the Administration report would show progress but 
your report would show `not met'.
    Mr. Walker. I don't know. We might give you ``partially 
met'' on that.
    Mr. Thornberry. I hope that happens. I am not holding my 
breath but the point is, as I understand, let's see, 8 of the 
18 benchmarks are waiting on the Iraqi legislature to pass a 
bill. And one of those has been met so far, and you described 
already one of--another that you describe as partially met 
because they passed the bill, but it hasn't taken effect yet, 
is that true?
    Mr. Walker. That is correct. There are eight benchmarks 
they have met. One they have partially met. Six have not been 
met in the legislative area.
    Mr. Thornberry. Well, I appreciate the work you all have 
done. I would hate for somebody to judge by this standard in a 
number of areas because I am not sure that this Congress would 
come out as well as a lot of us would hope.
    But I also look forward to continuing to work with your 
organization in looking for objective measures to see whether 
the things are getting better that stand the test of time. It 
is a huge job. I am just beginning to appreciate that 
difficulty, but I think your folks can help us do that, and I 
appreciate it.
    Mr. Walker. Somehow I doubt that Congress is going to ask 
us to measure its own effectiveness in some of these areas but, 
you know, who knows.
    The Chairman. I thank the gentleman.
    The gentleman from Arkansas, Dr. Snyder.
    Dr. Snyder. Thank you.
    I guess I spent too much time with Mr. Thornberry because 
he and I are coming at this in similar ways. I think either 
from an independent view--over 30 years ago when I worked for a 
community action agency, I attended what we thought was this 
brand new measuring by objectives and which I think makes a lot 
of sense that you come up with what the goals of the 
organization are, and then you come up with some measurable 
ways of dealing with it. At that time, I was a supervisor of a 
list of volunteers, and it wasn't enough to have good people 
roaming through poor communities. You wanted to see was there 
something measurable. So we have these benchmarks where, you 
know, we are all looking at as something measurable.
    The concern I have is getting back to a line that you have 
at the very end of both your summary and in the main text in 
which you say as the Congress considers the way forward in 
Iraq, it should balance the achievement of the 18 Iraqi 
benchmarks with military progress and with homeland security 
goals, foreign policy goals, and other goals of the United 
States.
    And my concern is I am not--I don't believe that we are 
spending enough time talking about what are our goals for the 
region and for individual countries, and I came up with just a 
quick list here. One would be the goal of fighting terrorism, 
international terrorism, organizations such as al Qaeda. What 
is our relationship, what is our long-term policy goal with 
regard to Iran, Syria, and it is both on the Iraqi border but 
it is also involvement with Lebanon. Saudi Arabia, we recognize 
it as an energy state, a stabilizing state, but also has not 
developed much in terms of democratic principles.
    Also Turkey, one of our NATO allies who has issues with 
regard to Kurdistan and the border. The whole issue of energy 
policy and where oil fits into that. Jordan, and the influence 
that it has not only with regard to Iraq, but probably a 
million or so Iraqi refugees that it has there, but also 
Jordan's big relationship with Palestinians and its 
relationship with Israel.
    The whole issue of genocide. One of the things we don't 
have is what would happen if we didn't have any military force 
there? Would the number go--talk about a trend, this 
perspective of looking at what would happen to human rights 
down the line. The whole issue of intelligence. Our ability to 
gather intelligence throughout the world. How does our military 
mission fit in and the future of Iraq fit into gathering 
intelligence?
    Our relationship with the Muslim world as a whole. The view 
of the Muslim role in the world as a whole. Is it worse than 
the United States has seen in a very long time?
    Anyway my point is, I am not asking you what do you think 
the individual goals are for each of those nations, what is our 
strategic goal for that region? But we have a series of what we 
think are measurable objectives, but I am not sure how they 
relate to any of these specific strategic goals, or we don't 
have articulation of the goals for that area.
    And I will use one specific example with regard to Iran. 
The President in his speech in Australia talked about Iraq 
being an ally against international terrorism. And we have 
heard people talk about it being an ally against Iran. Well, a 
democratic Iraq may have a different view of what its 
relationship with what Iran will be.
    So my question is, should we be having a hearing here--we 
have had this one today on measuring the objectives. Shouldn't 
we be having a bigger discussion on what are the foreign policy 
goals of this Nation with regard to some of those areas that I 
outlined? And then have a discussion about what are the 
objectives that we are going to look at with regard to 
achieving those specific foreign policy goals that you 
mentioned in your statement.
    Mr. Walker. Well, first, Mr. Snyder, let me say that what 
we did in issuing this report is what the Congress asked us to 
do on the time frame you asked us to do it. And in my 
professional opinion----
    Dr. Snyder. I am not talking about this should be your 
burden, I am talking about it in terms of the goals.
    Mr. Walker. But I think we can help you. In my opinion, I 
think we need to fundamentally reassess what our goals ought to 
be: Micro in Iraq and macro within the region, and with regard 
to the Islamic community, et cetera.
    Second, we need to define objectives in order to try to 
help achieve those macro and micro goals. We need metrics and 
milestones that will help to assess where we are, how we are 
progressing, which ones are more important than others, and 
what is a realistic path, you know, an expectation to have on 
making that progress, and we need to have periodic reporting on 
that based upon relevant and reliable data that is reviewed by 
independent parties. We would be happy to work with the 
Congress to try to achieve that should you so desire.
    The Chairman. Thank the gentleman.
    The DIA has furnished us a declassified monthly attack 
trend by category. I have laid it in front of each of the 
members. You might find it of interest. Going back to May of 
2003 through July of 2007.
    And the gentleman from North Carolina, Mr. Jones, is 
recognized.
    Mr. Jones. Thank you very much.
    And, Mr. Walker, thank you, and I realize that any time 
that you give a report, especially during wartime, that it is 
going to be very controversial, because it depends on those who 
are listening and what side of the political aisle they happen 
to be on, and I think that is sad for this reason: The American 
people are frustrated. They want to know that the Congress is 
meeting its constitutional responsibility and therefore, 
however the Congress sees its constitutional responsibility, to 
help with the White House to have a direction for victory and a 
definition and understanding of victory. It is critical.
    You are one that I have great respect for. You have said 
for years this country is going financially broke disregarding 
the war. I heard my friend from Texas talking about your 
position about Social Security. And all of this ties into it.
    But the faces I saw yesterday at Walter Reed, the 19-, 20-, 
and 21-year old kids that have great attitudes, they are not 
talking the policy, the things we are trying to do based on our 
constitutional responsibility.
    But those faces are going to be the veterans for the next 
30 and 35 years, and the majority of them are amputees. A 
couple will never get out of a wheelchair without help. So this 
is important. And it will be important what Petraeus and 
Crocker say next week.
    I--and this might be piggybacking or associating with what 
Mr. Reyes was talking about--but I look at, in amazement, at 
benchmark 11, ensuring that the Iraqi Security Forces are 
providing evenhanded enforcement of the law. And you and the 
Administration agree on that it is not happening, if I read 
this correctly. Are not met. Unsatisfactory.
    Who is responsible for making sure that the Iraqi Security 
Forces are being evenhanded? To me, that is the basic. If you 
are going to have any type of reconciliation or any way that 
different segments of Iraq's population can somehow figure out 
that we can be friends, we can work together, but if you have 
got the Iraqi Security Forces that are not being overseen and 
told you have got to get--you must do a better job of this. I 
don't know where in the world we are going.
    Would you speak to that, please?
    Mr. Walker. The ultimate responsibility is the Iraqi 
government. And a subset of that would be the military 
commanders of the Iraqi forces. But the ultimate responsibility 
is the Iraqi government.
    Mr. Jones. Mr. Walker, I would think that, and, again, you 
have your role based on your responsibilities. But I would 
think that this Congress and this Administration, there are 
some of these benchmarks that, in my humble opinion, over a 
five-year period of time and over one trillion dollars and our 
troops are worn out, quite frankly. I talked to many during the 
August break. I have Camp Lejeune down in my district, and I 
saw them off base.
    But to me, there has got to be the Congress and the 
Administration. I mean, how much longer, if you are here next 
year or the year after, and you are saying to those who are 
sitting on this committee, next year and the year after, that 
we are still looking at failure in meeting benchmarks, then 
what would you as private citizen David Walker, what would you 
say to the Congress? Where are you going? How would you--what 
would you advise the Congress at that time as private citizen?
    Mr. Walker. Obviously the public is very frustrated. This 
is an important yet polarizing issue. I came back to what I 
said before to Mr. Snyder. I think it is time for the country 
to reassess what the goals ought to be, what the objectives 
ought to be, what the metrics and milestones ought to be, and I 
am happy for us to try to provide our independent professional 
judgment to the Congress if you want to do that, to be able to 
do that.
    Let me also note that while the President is Commander in 
Chief, the Congress has the responsibility to appropriate 
funds. And we also know only the Congress can declare war, but 
yet that hasn't been declared since World War II, and yet we 
have spent a lot of money and lost a lot of lives since then.
    The Chairman. The gentleman from Washington, Mr. Smith.
    Mr. Smith. Thank you.
    We have talked about a lot of the numbers, and I appreciate 
your analysis there. But to a certain point, I think what Mr. 
Snyder and Mr. Thornberry and others have talked about in terms 
of the objectives and where we are going is really the more 
important point. If there is a 1,000 deaths, whether they are 
sectarian or civilian, one month, and then there is 1,200 the 
next or 800 the next, what we really want to know is what is it 
telling us and where are we going.
    What you told us earlier--the mission of our troops is what 
is really important. Fighting al Qaeda is really important. 
Patrolling the streets of Baghdad is a much different question. 
And the one thing I would think you would agree with is 
unquestionably there is a large amount of sectarian violence in 
Iraq.
    We can't say that we have turned any sort of corner. If we 
are going down at all, it is month to month. It is province to 
province. It is not comprehensive, across-the-board success.
    I trust you would agree with that regardless of what 
numbers----
    Mr. Walker. There is still significant sectarian violence. 
The data shows that it is declining, but it varies in 
geographic areas. Only time will say whether it is sustainable. 
Hopefully it is.
    Mr. Smith. You mentioned one of the benchmarks. If the 
militia control of local security is something we are trying to 
prevent--but in one way of looking at Iraq, they are trying to 
fill a power vacuum after Saddam Hussein went down. It is 
really an overstatement to say there is no central government. 
But I don't think it is an overstatement to say I doubt you can 
identify a community or a part of Iraq that the central 
government really has control of. There is various factions 
battling in a bunch of different places, and there are 
different factions in different places.
    Our success primarily came in al Anbar from getting the 
Sunnis to turn on al Qaeda. We picked one local faction. We had 
the rarest of circumstances in Iraq where we could clearly say 
this faction is worse than that faction. No doubt about it. And 
we are trying to line up with them, and we have had that 
success.
    My concern is that doesn't lead to long-term success in 
Iraq. If the whole point of this is secure Iraq so we can bring 
our troops home and--as Mr. Jones has pointed this out 
eloquently, we all know the costs. I don't think there is a 
single member here who would deny the cost of maintaining our 
troop presence in Iraq at its level or anything close to it.
    We want to stop that, and what I have been frustrated by 
for three years, no matter what all of the progress--up, down, 
sideways--we are getting no closer to bringing the troops home, 
because who are we going to turn it over to, and right now what 
is happening is local militias in different places are getting 
control, and some of the violence in Baghdad is because the 
ethnic cleansing has been completed. The Shi'a now totally 
control a neighborhood. There is nobody left to kill. That is 
not exactly success.
    So my frustration is I don't think our troops are moving 
this forward in most places in a positive direction. It is the 
sectarian stuff is sorting itself out.
    And getting past the numbers for the moment, six to seven 
months from now, how does any of what I just described change 
in a way that we have a reasonable group to turn security over 
to, either a central government--which I think is pure fantasy, 
but if we want to talk about that, we can--or to some local 
militias who are not a friend of ours. I don't see any of those 
two scenarios. And if so, isn't it really time to figure out 
how to de-escalate?
    Mr. Walker. I don't think all of these 18 benchmarks are 
equal. We didn't try to weight them. Congress didn't ask us to 
weight them, but I think one of the things that you ought to 
think about on a going forward basis is are these the right 
benchmarks, should some be added and should you try to weight 
them in some way?
    That brings me back to the point that I said before. It is 
time to reassess what are our goals, what are our objectives, 
who should be doing what, including what the proper role of our 
forces should be.
    Mr. Smith. I just took a stab at that reassessment, 
actually. What do you think of that reassessment? As with 
everybody here, I have got a lot to learn on this. It changes 
rapidly. If it is true the way I just described it, it puts a 
totally different picture than we are just sticking it out 
until we get the security over and turn this over to somebody 
we can trust.
    So I am curious in the moments left here----
    Mr. Walker. Well, you know, I think it is one thing to help 
the Iraqis help themselves, but ultimately there are certain 
roles and functions that the Iraqis have to be able to perform 
on their own. And there are certain things that only the Iraqis 
can do: I mean, pass the legislation, and try to do that, okay?
    But I think there are certain things that we are doing 
right now that ideally Iraqi forces ought to be doing versus 
U.S. forces. I mean, we are a foreign force to the Iraqi 
people. And most countries, including our own, don't like for 
foreign forces on the ground for too long.
    The Chairman. Thank you.
    Let me follow through on that, if I may. For instance, what 
should the Iraqi forces be doing that we are doing for them?
    Mr. Walker. Well, for example, I think that the most 
notable area is that we are trying to achieve and maintain 
security of the streets in portions of Baghdad and other parts 
of the country rather than necessarily just focusing on 
training the Iraqis and providing certain logistical air 
support and going after al Qaeda wherever al Qaeda might be. 
That is probably the biggest single issue, Mr. Chairman, that I 
would point to.
    The Chairman. Thank you.
    The gentleman from Virginia, Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman, and thank you, Mr. 
Walker, for your good work, and thank you, Mr. Walker, for 
being here and for your good work, and whenever we are doing an 
analysis of success or analysis of success for any programs, as 
I understand it, we need a couple of criteria. First of all, 
you need competent analysts that are doing that, and we 
certainly recognize you and your shop are competent at what you 
do. We also need independence, and as I understand your 
testimony, you believe that you would be more independent than 
General Petraeus and Ambassador Crocker in making this 
analysis.
    Mr. Walker. They are clearly professional and clearly 
capable, and they are clearly on the ground, but I don't think 
you can say they are totally independent.
    Mr. Forbes. I don't know that any of us are totally 
independent, but you are more independent----
    Mr. Walker. We are more organizationally independent, 
without question. Ambassador Crocker works for the President of 
the United States. General Petraeus works for the President of 
the United States, because the President of the United States 
is Commander in Chief of the military.
    Mr. Forbes. Now assuming that I may agree or disagree with 
you on independence. The other factor that is important in 
making an analysis is information; is that correct?
    Mr. Walker. That is correct.
    Mr. Forbes. Who has more information about the situation in 
Iraq? Your office or General Petraeus?
    Mr. Walker. Depends on what the issue is. He has more 
information with regard to conditions on the ground, with 
regard to military. We probably have more information with 
regard to legislative and economic issues than he does.
    Mr. Forbes. The third thing that goes into play is the 
metrics; and, what I understand, the metrics you used is 
basically the benchmarks.
    Mr. Walker. And that is what we were required to use by 
law.
    Mr. Forbes. You were required to use these metrics, and the 
benchmarks that you have here--I think I heard your testimony 
correctly--was primarily given to you by the Iraqi government. 
Is that true on a lot of the benchmarks?
    Mr. Walker. The first exhibit shows what the source of the 
benchmarks are. They are overwhelmingly issues that the Iraqi 
government agreed to.
    Mr. Forbes. My question for you is--you probably know 
better than anybody in this room the kind of information and 
the metrics that General Petraeus and Ambassador Crocker is 
using, and my question is of--having assessed that, do you feel 
they have meaningful, accurate, and objective methods and 
metrics for doing their analysis, and if not, what suggestions 
would you have for them in terms of changing their metrics?
    Mr. Walker. Well, first, having not seen what they are 
going to say, I can't comment on whether it is reasonable or 
reliable. I will say this----
    Mr. Forbes. If I can clarify my question. It is not whether 
it is reasonable or reliable. It is the metrics they will be 
using. Are you familiar with their metrics?
    Mr. Walker. I don't know what metrics they use.
    Mr. Forbes. So at this particular point in time you don't 
know their metrics. Their metrics could be something different 
than what the Iraqi government said what they should do.
    Mr. Walker. One I know I have a concern about, which we 
have talked about at length, is sectarian violence.
    Mr. Forbes. How do you differ in your metrics from their 
metrics?
    Mr. Walker. First I question whether it is a relevant 
metric. Violence is violence. Second, I question the 
reliability of being able to determine with any degree of 
certainty that something is sectarian-related versus non-
sectarian-related.
    Mr. Forbes. Of the metrics that you were given, did you 
agree with these metrics and would there have been any changes 
that you would have used in this metrics?
    Mr. Walker. First, we can talk more in the classified 
briefing about the one issue I talked about before. Second, 
these are not the benchmarks that I would pick with a clean 
sheet of paper up.
    Mr. Forbes. Just in conclusion, you think you are more 
independent than Petraeus or Ambassador Crocker. They could 
have more information or less information. We don't know that. 
And the metrics you used would not have been the metrics you 
would have used if you could have picked on a clean sheet of 
paper but Petraeus and Crocker would not be so limited because 
they had a clean sheet of paper because we didn't dictate to 
them what metrics to use.
    Mr. Walker. No. I think you did say that they are supposed 
to show whether or not satisfactory progress is being made in 
these areas but they do--may do things other than these that 
you didn't ask them to do and I expect they will.
    Mr. Forbes. Thank you.
    The Chairman. Thank you very much.
    Let me compliment the committee. You are staying well 
within the five-minute rule. We get more folks the opportunity 
to ask questions.
    Mrs. Tauscher, the gentlelady from California.
    Mrs. Tauscher. Thank you very much for being here.
    I applaud you and your staff for what I consider to be a 
very comprehensive report, considering you didn't pick the 
metrics, considering that I do believe you are independent, 
when we stipulate to some of these things up front, and what 
has been a Gordian Knot for both the Congress and the American 
people for the last five years.
    I just got back from my fourth trip to Iraq last week, and 
I did not find the kind of progress that I had been led to 
believe that we would achieve. Let me also stipulate that when 
you have the finest fighting force in the world and you add 
more of them, there will be more security where they can be.
    We are now at 160,000-plus troops. There isn't anybody on 
this planet that doesn't know that we cannot sustain that 
number through March. So we are going to have a withdrawal of 
troops. When we have that withdrawal of troops, one of the 
questions I tried to ask or did ask and did not get a 
satisfactory answer out of either General Odierno or Petraeus 
last week was what we have in March, some drawdown, whatever 
that number is; presumably, it will be in the 25 to 30,000 
range if we go down to where we were previously. Considering 
that there have been modest gains, considering that the Sunni 
tribal leaders in Anbar have, at least, at best, a 
transactional movement toward us to get rid of al Qaeda. 
Whether it is sustainable or not, I don't know. In the absence 
of a central government in Iraq that can actually create the 
environment where Iraqis are going to be willing to fight and 
die for their country, your benchmarks are devastating when it 
comes to the readiness of the Iraqi military, and they actually 
comport with the Administration's assessment.
    So the missing years, the years of 2004 and 2005 where we 
were mentally accomplishing all of this training, we don't now 
have an Iraqi force that is ready to take over, and as you 
said, there are two different parts of the Iraqi security force 
component: One is the military, the Ministry of Defense (MOD), 
and the other is the MOI, the Ministry of Interior. We are 
going to get a report in the next couple of days from the Jones 
Commission, and I am pretty safe--it is pretty safe to say they 
are going to be absolutely devastating about the military, 
about the Ministry of Interior, the police. That is where we 
have had a real conundrum where we look like occupiers, where 
we have to patrol the streets.
    So if there is no central government that can cause Iraqis 
to fight and die, if these assessments about the military 
readiness are as bad as they appear to be and we have no police 
force that is going to come on that is not going to be full of 
sectarian death squads, how are we meant to move forward 
considering that--I know a lot of my colleagues that I like and 
respect insist on talking about the metrics and your 
independence, which isn't the subject.
    I think this is a question of after $330 million a day, 
3,700 dead, 30,000 devastatingly injured and with a military 
that is stretched beyond capacity for another contingency, what 
is in the national security interest of the American people? 
And I think that is the debate we should be having. After five 
years, if this is where we are, is it in the national security 
interest of the American people to just continue to do this?
    And I think that your assessment is not about the MOI, but 
I would be interested in any kind of intelligence you have 
about the military, the Ministry of Interior and whether you 
think that there is any capability at all for the Iraqis to 
begin to do at least the police work.
    Mr. Walker. Clearly there has been unsatisfactory progress 
on the political front. Clearly there hasn't been enough 
progress on the security front with regard to the Iraqis' role. 
Our people have made a difference. Clearly they have made a 
difference in recent months.
    And clearly there are concerns with regard to the fact that 
I think it is 15 of the ministers have now drawn support for 
the current government and that there are concerns about 
sectarian infiltration of the ministries as well. You mentioned 
one which obviously is more of a concern on day-to-day security 
issues.
    And I think that is why I say we have to step back, okay? 
What should our goals be? What should our objectives be? Who 
should be doing what? What are the metrics and the milestones 
that we need to have in order to be able to try to assess that?
    You know, it is time to reconsider all of those, I believe.
    Mrs. Tauscher. I appreciate that. I just think that we have 
been launched on a false debate here. I don't want to continue 
to debate whether the surge is successful or not. I think the 
question really is: What is in the national security interest 
of the American people, and is this situation sustainable? And 
I think the answer is it is not.
    Thank you.
    Mr. Spratt [presiding]. Mr. Turner.
    Mr. Turner. Thank you.
    Mr. Walker, I too want to echo what others have said about 
GAO and its reputation and all of the work that you do. So many 
times in all of our committees it is important to get an 
assessment that tells us what an agency is doing, what a policy 
is doing or what the consequences are of action or inaction. So 
I want to commend you and the work that certainly everyone in 
your agency does.
    You have emphasized several times the issue of independent 
and professional and maybe a little too much, in my opinion, 
your emphasis on independence, because you know everyone comes 
with their own bias, their own funding resources that they have 
to respond to and the like.
    But nonetheless, your statement of independent and 
professional--and I want to ask you this question because of 
what we are going to be doing next.
    In looking at your assessment, I don't think overall there 
is a whole lot of disagreement on this committee about the 
conclusions that you reached.
    But you are preceding General Petraeus and the ambassador 
when they come in and tell us what their views are. And with 
your emphasis of independent and professional, I know that you 
don't mean to diminish what they have to say for us. I mean, 
General Petraeus has said that they would be honest and 
straightforward. He will tell us if our policies are not 
working, if we need to be doing something different or if we 
are making progress.
    I know the people in this committee have a great deal of 
respect for General Petraeus.
    So perhaps you could give us some guidance as to how you 
see us proceeding. We have your independent professional 
report, which I don't think you have heard too many people pick 
specific items that they had significant difference of opinions 
as to what you have said factually.
    How would you recommend that we review and critically 
undertake an analysis of what General Petraeus and the 
Ambassador will say for us?
    Mr. Walker. First, I have tremendous respect for General 
Petraeus and Ambassador Crocker. I have no doubt in my mind 
that they are extremely capable professionals that you ought to 
seriously consider whatever they have to say. I think they will 
give you their views.
    My view is when you are dealing with independence, there 
are two issues on independence. There is individual 
independence and institutional independence. From an individual 
standpoint, they may be giving you their independent view, but 
they are not institutionally independent from the executive 
branch. That is a fact.
    Second, they clearly are in a better position to assess 
certain things than we may be because they are on the ground.
    On the other hand, you know, I think it is important for 
you to be able to consider what they have to say, what General 
Jones and his group have to say, what we have to say, and you 
need to triangulate that. You need to triangulate that 
information and try to be able to, you know, assess what you 
are comfortable with.
    But I come back to what I said before: I think we need to 
figure out where we are and where do we go from here 
irrespective of what they have to say.
    Mr. Turner. I agree with you. But to focus on they are not 
institutionally independent, it almost sounds as if it is 
diminishing the professionalism and what they are going to say. 
I know you don't mean that.
    Mr. Walker. Not at all. I think they are extremely capable 
professionals, and I think you ought to seriously consider what 
they have to say. That is all I am saying.
    Mr. Turner. On the issue of benchmarks, you said if you 
have a blank piece of paper you would start with other 
benchmarks.
    Could you give us some examples of these, that when you 
were going through this analysis, you thought, ``These really 
ought to be here?'' There is information that I could provide 
on it.
    Mr. Walker. One, with regard to the overall strategic 
interest of what are we trying to accomplish in the region, you 
know, that is not in here. Okay. Second, with regard to whether 
or not what is being done is changing the daily lives of 
Iraqis, you know, which obviously could help, that is really 
not in here.
    There is no attempt to really weight these. Some are more 
important than others with regard to us being able to withdraw 
troops. Some are more critical than others, us being able to do 
that.
    So those would be some examples. We did what we were asked 
to do but we are willing to work with Congress to try to 
improve this if you are so desirous.
    Mr. Turner. Thank you.
    Mr. Spratt. Mrs. Davis of California.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    Thank you, General Walker, for being here. I wanted to 
follow up a little bit on the points that have just been made, 
because I think the question, to me, seems to be: What is our 
mission there, and what is it about the different efforts that 
are being made that will move us toward--move the Iraqis more 
in the entire community toward political reconciliation, and it 
seems to me that if they ask it that way, that perhaps what is 
happening in al Anbar isn't necessarily feeding into that goal. 
And while it is a calculated risk, and I think it is an 
important one, and I think it demonstrates the adaptability of 
our forces, that is important.
    On the other hand, it certainly raises some questions about 
whether it is really going to bring about that--the coming 
together, the reconciliation that we are all looking for. 
Because the Sunnis clearly are joining with us but they are not 
joining with the Iraq government. If you look at that--even 
having this benchmark, I don't know whether it is going to help 
with that.
    How do you see--I think you just referenced it a little 
bit. How do you see getting to the realities on the ground and 
some of the changes that are being made with the surge--or 
without the surge for that matter--that actually are consistent 
with the benchmarks? And does that make the benchmarks totally 
irrelevant, so that we need new ones? Or is it an important 
question to ask because, in many ways, it is somewhat 
contradictory?
    Mr. Walker. I do not think the benchmarks are irrelevant. I 
think the Congress needs to consider these benchmarks. My point 
is I think there is additional information that the Congress 
needs to consider in addition to these benchmarks.
    And more fundamentally, I think we need to reassess what 
should our goals be, what should our objectives be, what should 
the metrics and milestones be. Not take this as a given. And 
not take the goal that the President has articulated or the 
goals that he has articulated as a given at this point going 
forward. There needs to be an exchange there.
    On al Anbar province, no question progress has been made 
there for a variety of reasons. The question is, is it 
sustainable, transferable, and will it directly support the 
types of goals and objectives that we seek to achieve 
throughout Iraq, not necessarily just in one section of Iraq?
    Mrs. Davis of California. How would you judge then whether 
or not those efforts would bring about political reconciliation 
if in fact that is an overriding goal that we have?
    Mr. Walker. I think when you look at these benchmarks, and 
I really don't want to weight them at this time, I think some 
of these benchmarks are clearly more important than others if 
the objective is to be able to get the Iraqis to be able to be 
self-supporting to the point where we can start withdrawing 
forces.
    Some of these are clearly more important than others, and I 
would be happy to try to work with the committee on that.
    Mrs. Davis of California. If I could turn really quickly to 
page 15 in the report where you reference the level of detail 
that you all were requesting for the level that the Department 
of Defense (DOD) has--I think part of it was on the levels of 
sectarian violence, but other issues--did you believe that the 
numbers and the statistics that are being provided to the 
Administration are all of the information that is out there? I 
guess that is really the question. There seems to be some 
frustration about what--you are being provided with numbers 
that DOD has. Is that--was that a concern and an issue, and is 
that something that----
    Mr. Walker. Let me say there are various sources of 
information. There are various types of information. They are 
not all the same.
    I think it is very important for you and every member to 
read the National Intelligence Estimate report, the classified 
versions. I think it is also very important for you to read the 
classified version of our report.
    Mrs. Davis of California. Thank you, General.
    Mr. Spratt. The gentlelady's time has expired.
    Dr. Gingrey from Georgia.
    Dr. Gingrey. Mr. Walker, you had said in the early part of 
your testimony that you felt that the military and General 
Petraeus' upcoming report on Monday was going to be likely very 
professional, as you would characterize, I am sure, your own 
report.
    But you did question the independence of that report and 
not questioning the independence of your own report.
    I would like to ask you to comment on--I know you do good 
work. I know the Government Accountability Office in regard to 
many things--certainly we talk about Social Security and other 
issues, but I would question whether or not you have the 
professional ability the military, the commanders on the 
ground, have in regard to making this assessment.
    And it seems to me that your report--I am not suggesting 
that it is deliberate, because it does have the effect of 
undermining Petraeus-Crocker report that we will receive on 
Monday. The timing of these reports, I am sure you have nothing 
to do with it. I have nothing to do with it. But let me just 
specifically ask you this: You have a lot of people on the 
ground. You said the last group was in Iraq from August the 
22nd, I think, to September the first--July 22nd to August the 
1st.
    In this report you obviously couldn't be there and you had 
to rely on a lot of other people within your department.
    How much unanimity of opinion was there within your own 
organization or was there some discrepancy with regard to--the 
word ``spin'' is not the appropriate word, but as somebody, you 
know, writing the headlines on a report that a beat reporter 
presents to them, it can change the context significantly.
    Comment on that for me.
    Mr. Walker. Yes. First let me be clear.
    What I said was that we are the only independent and 
professional you are going to get on the 18 benchmarks. General 
Petraeus is going to focus on the security situation. I doubt 
he is going to focus on the political and economic. And he is 
in a great position to deal with the security, and you ought to 
seriously consider whatever he has to say.
    With regard to our own views, we had a debate within our 
agency about whether or not we should provide a ``partially 
met'' rating and, if so, under what circumstances, because the 
statute does not call for that. It says either ``met'' or ``not 
met.''
    In my independent and professional judgment, I felt that it 
was incredibly important for us to recognize that in some 
circumstances a ``partially met'' rating was a better 
reflection, a more fair and balanced reflection of what the 
conditions were as of the point in time. And ultimately we 
agreed on that but that there was not agreement initially.
    Second, I felt it was very important, and we achieved 
agreement on it, that we provide contextual sophistication, 
that even on those areas that are not met doesn't mean there is 
no progress----
    Dr. Gingrey. Let me ask you with regard to benchmark number 
10. You rated this as not met with providing Iraqi commanders 
with authority to execute Baghdad operations, make tactical and 
operational decisions without political intervention.
    Mr. Walker, it is my understanding that contrary to past 
experiences, Prime Minister Maliki and possibly other high 
level officials are not interfering with operations against 
Shi'a individuals and groups, and if you could then explain 
your assessment.
    Now in your conclusions, you say in the middle of that 
paragraph, despite Iraqi leaders recently signed the unity 
accord, the polarization of Iraq's major sects and ethnic 
groups and fighting among Shi'a factions diminishes the 
stability of Iraq's government Coalition's potential to enact 
legislation needed for sectarian reconciliation.
    It seems like you have sort of prejudices yourself in that 
regard and several of these benchmarks where you give a zero 
score to are just not accurate.
    Mr. Walker. First, it is very important to understand that 
``not met'' doesn't mean zero. Okay. ``Not met'' means that 
they haven't made enough progress to justify a ``partially 
met.'' Now some of these it doesn't, you know, doesn't make 
sense to have a ``partially met.'' There is no way to have 
``partially met.'' You either do it or you don't do it.
    I believe there is some additional information with regard 
to these benchmarks in our classified report that we might be 
able to talk about as well.
    Mr. Spratt. The gentleman's time has expired.
    Mr. Larsen of Washington.
    Mr. Larsen. Thank you, Mr. Chairman.
    Thanks for coming to help us out, and I say that 
deliberately, because I think you are helping us out.
    I don't think that--well, if your report--if the GAO's 
report is potentially undermining General Petraeus' report 
Monday, then so did the unclassified versions of the NIE that 
came out a few weeks ago and so was General Jones' report 
tomorrow that is calling for the total disbandment of the 
National Iraqi Police. And so will probably the outside 
perspective that we are going to get from defense experts and 
so on.
    You would be in good company, in other words, if your 
report was, in fact, undermining General Petraeus.
    I think we are missing the boat here where your reports and 
these other reports aren't there to undermine anybody or 
support anybody. These reports are there to help us understand 
the situation as fully as possible, short of all of us spending 
a year-plus in Iraq, side by side with the privates and the 
corporals and the sergeants and our own military.
    So don't walk away from here, at least from my perspective, 
that your report is undermining anyone or anything on this. 
This is one piece of information for us to consider as we are 
trying to make some very hard and very difficult decisions 
about Iraq.
    And I am certainly with my colleague, Susan Davis, and 
colleague Ellen Tauscher, and others on their remarks about 
sort of us focusing so much on the surge, so much on street 
corners in Iraq that we are ignoring what is going on in the 
region, what is our strategic vision in the region, what is 
Iraq getting us in the end for U.S. national security interests 
in the region. And we need to be beginning that transition of 
thinking, because right now Iraq is sort of the--is the tail 
wagging the foreign policy dog for us, and it ought to be in 
reverse. We ought to be placing Iraq in some context in that 
region for us.
    Now having said that, you mentioned al Anbar several times 
in response to questions. Questions about is it--is the success 
there, which there is some relative success there, is it 
transferable, is it sustainable. You have asked those questions 
but I want to ask you, do you have an opinion on that? Do you 
think it is transferable? Do you think it is sustainable? And 
if not, do you have questions that we should consider? Seems to 
me General Petraeus may in fact discuss this with us next 
Monday, if not Ambassador Crocker. And how should we formulate 
or what questions should we formulate about the al Anbar 
experience and how it might be transferable to a much larger 
city, Baghdad, with a much more complex set of sectarian 
issues?
    Do you have opinions on that?
    Mr. Walker. Based upon non-classified information, first, I 
think it is important to note that there was a disproportionate 
amount of foreign fighter activity in al Anbar province--al 
Qaeda, as well--al Qaeda in Iraq, as well as foreign fighter 
activity. What changed dramatically was the tribal leaders and 
others decided that al Qaeda had gone too far, allegedly, and 
therefore they are trying to fight al Qaeda.
    Now, one has to understand that, and one would argue--and I 
have heard broad-based agreement here--that we ought to be 
doing whatever we can to eliminate al Qaeda. So that is 
relevant, and we have to determine how we can transfer that.
    Second, al Anbar is about 15 percent, I understand, of the 
total Iraqi population. It is not part of Baghdad. It is 
predominantly a Sunni community. So when you talk about 
sectarian violence like Sunni versus Shi'a or whatever, that is 
not really that relevant there, okay? Now not to say that there 
aren't differences within the Sunni community, the Shi'a 
community, there are. But that is another example of where the 
al Qaeda experience might be able to be transferable but the 
sectarian experience might be different than what we are 
experiencing elsewhere, including in Baghdad, because of the 
demographic makeup of that province.
    Those would be a couple of examples.
    Mr. Larsen. So those would be some questions to explore?
    Mr. Walker. And I agree with your characterization. I think 
you ought to seriously consider what Admiral Crocker and 
General Petraeus say. You ought to consider ours along with 
theirs and along with General Jones and triangulate.
    Mr. Spratt. Mrs. Drake of Virginia.
    Mrs. Drake. Thank you, Mr. Chairman.
    Thank you, Mr. Chairman. And thank you, Mr. Walker, for 
being here. I think what is frustrating is that we really tied 
your hands and that there is things out there that we can all 
see that aren't really able to be reflected on this page.
    And I also went to Iraq over August. And when we met with 
the Deputy Prime Minister, the question that I had for him was 
that it was my understanding that he had the votes to pass the 
legislation that we are so interested in. His answer back, kind 
of surprised, was, well, yes, he had 75 percent of the vote and 
could very easily pass the legislation, but if he did that he 
would be cutting the entire Sunni politicians out, and they 
would feel that they had no impact on the government, no 
political clout.
    So what happens on your report is that all of the 
legislation is not met, but number 16, where you talk about 
rights of minority political parties, is met. Where had they 
passed that legislation, it would have been--I guess you would 
have had to say those weren't met, because you would have cut 
an entire segment out of the political process and made them 
feel--so I don't know how you are able to weigh when you look 
at this what it really means. Because when he explained it, I 
thought I would much rather they wait, get the consensus that 
they are trying to build in order to pass this legislation, 
than to cut an entire segment out of the population.
    If you want to comment on that, I have a couple more before 
I run out of time.
    Mr. Walker. Of course, Ms. Drake. First, if I understand 
the situation directly, and I don't know what was said, that 
wouldn't change our assessment on number 16. The infrastructure 
is there to protect minorities. But on the other hand, in any 
democracy a super majority is going to prevail. That is a 
political judgment which they are making to say that I don't 
think it is right to be able to pass it right now because it 
could have a significant adverse effect on the ability to 
achieve national reconciliation. That is their judgment.
    Mrs. Drake. Right. So they lose points instead of gaining 
points for trying to do something that will give greater 
stability?
    Mr. Walker. No, they wouldn't lose any points. We wouldn't 
change number 16. That would stay the same. Actually they would 
be gaining points if they actually passed some legislation. 
Then the question is whether or not there could be an adverse 
effect someplace else because they did that.
    Mrs. Drake. The other comment that he made that was so 
interesting, because he clearly was also disappointed with the 
national government, but he wanted us to understand that their 
focus and their goal right now was to create the institutions 
of government so that one party could not take over; no one 
could grab power and be in absolute control. And that is very 
similar to what Admiral Fallon talked about recently, and 
explaining that our objective is to create those conditions 
that are necessary for a government to function, like rule of 
law and protecting the rights of citizens. I guess part of my 
frustration is that you are not able to reflect that, and maybe 
like you have said, we need to come back and give you a wider 
range to do it.
    I also on that same vein am concerned that the economic 
status isn't really reflected in the benchmarks either. And I 
just read this week about Mosul ready to wear, and that we are 
going to be importing clothing made in Iraq to be sold in 
America, as well as--you never read about the 60 countries that 
are helping us on the reconstruction effort. So I just think, 
to the average person looking at this and saying things haven't 
gotten better when there are a lot of things that can't be 
reflected in this report--so, that must be a frustration to you 
as well.
    Mr. Walker. It is. If I were drafting benchmarks, some of 
these would be there. Some of them would be different. There 
would be other ones that would be there. And I think that is 
something Congress ought to seriously consider, and I think you 
ought to think about changing.
    Mrs. Drake. And my last comment, and you have addressed it, 
and I have heard you say it deals with the level of violence, 
and your interpretation and then what we hear when we go. Our 
trip we actually met with four sheikhs, two Sunni, two Shi'a, 
which surprised me, because I thought they could never even 
speak to each other, much less work to take their region back, 
and to be sitting in the room in front of us, Sunni, Shi'a, 
Sunni, Shi'a. So I was a little too--and you have talked about 
it. I know I am running out of time, but I just wanted to 
mention that.
    We also asked General Petraeus what the best measurement 
would be, and his answer is the reduction in the number of 
Iraqi civilian deaths. That was a big factor for him.
    Mr. Walker. I think that is great that he said that, 
because basically what we are saying is: What difference does 
it mean if it is sectarian or non-sectarian? Let's focus on 
violence, irrespective of the nature of it.
    Mrs. Drake. But you would agree that overall the number of 
civilian deaths has decreased?
    Mr. Walker. In August. And I would have to go back and look 
beyond that.
    Mrs. Drake. Thank you. My time is expired. Thank you, Mr. 
Chairman.
    The Chairman. Along that line, the unclassified DIA chart 
that was passed around may be of some help to the gentlelady 
regarding this issue.
    The gentleman from Pennsylvania, Mr. Murphy, five minutes.
    Mr. Murphy. Thank you, Mr. Chairman. I appreciate it. 
General, let me just, I used to teach at West Point, and I 
taught constitutional military law there, and I used to teach 
on the first day about the separation of powers, executive, 
legislative, judicial. Part of the reason why the judicial 
branch is there is it checks and balances. It is an independent 
branch, a Supreme Court lifetime appointment. I know there is 
some criticism about your independence. I would like the record 
to reflect that you have a 15-year term. You are nine years 
into that term. And General, I appreciate your service to our 
country. And I also appreciate your son Andy's service in Iraq 
as a military personnel. So thank you for testifying and doing 
what you do.
    When I was in Iraq as a captain in 2003, I assisted about 
600 Iraqi troops in training. The President told us for years 
that the strategy for our troops to come home was that the 
American soldiers would train and equip the Iraqi Security 
Forces. We kept hearing from the President of the United States 
that as they stand up, we will stand down. However, when I was 
in Iraq we couldn't even get uniforms for our Iraqi troops. In 
fact, we outfitted them with the Chicago White Sox baseball 
caps. That was their uniform.
    As the New York City Times reported in July, and your 
report confirms, since the escalation of armed forces this 
year, 9 months ago, began, the number of Iraqi battalions rated 
as capable of operating independently of American forces has 
fallen from 10 Iraqi battalions to 6 Iraqi battalions. The 
report also states that the decrease in the number of trainee 
Iraqis is due to, and I quote, ``manning shortages as well as 
logistics and sustainment shortfalls,'' end quote. So the 
President's escalation strategy emphasizes peacekeeping and 
force protection and deemphasizes training Iraqi troops. In 
practical terms the President's escalation has enmeshed 
American troops even further making their sole mission, or 
focus of their mission, peacekeepers in an Iraq religious civil 
war. So I now question what the President is trying to deem a 
success for his escalation this year.
    So General, my question is: Is the President's escalation 
helping or hurting our efforts to train Iraqi troops, in your 
professional opinion? And if it is hurting those efforts, isn't 
the President being disingenuous when he calls the surge a 
success?
    Mr. Walker. Well, first, clearly the surge has had an 
impact in al Anbar province and part of Baghdad. The question 
is: Is it sustainable? Clearly it has not served to do enough 
to where you get the political progress, which is one of the 
purposes of the surge. The preliminary purpose of the surge is 
to get breathing space so you can get political progress and 
try to move toward unification of Iraq. That hasn't happened 
yet. Whether or not it will happen is a question mark. And 
obviously, to the extent that you have forces that are policing 
the streets, they are not available to do other things, 
including training Iraqi troops.
    But I don't have the data in front of me to say whether and 
to what extent there may have been a diminution in the amount 
of effort that we have given toward training over the time of 
the surge. I will have to look and see and maybe be able to 
provide you something separately on that.
    [The information referred to can be found in the Appendix 
beginning on page 67.]
    Mr. Murphy. Well, let us talk about the whole premise, or 
the major part of the premise of escalation was to give them 
the political ability to find a political solution. In your 
report, I think when we look at the political success of the 
Iraqis, our troops, and I know you would agree, are doing a 
terrific job in an almost impossible mission in Iraq. The 
Iraqis, on the other hand, are just coming off their summer 
vacation. The Sunnis, 15 of the 37 cabinet members, just quit. 
So we look at the whole premise behind the surge was to allow 
them to get their footing politically. They were given the 
opportunity for six to nine months, and what have they done 
with that? They took a summer vacation, or they have quit while 
our troops are fighting every single day. And I know we talked 
here as far as strategically. Our focus in America has been on 
that Iraqi street corner, as compared to the regional war on 
terror, when al Qaeda has gotten stronger and stronger in the 
war with Afghanistan and Pakistan toward national security, the 
detriment of our national security.
    So General, I would just ask you, if you can, in closing, 
because my time is expiring, if you could comment on the 
political benchmarks and what this Congress should be focused 
on besides your report going into the future, if you could.
    Mr. Walker. Just very briefly let me just say, I think you 
need to be considering things beyond Iraq, as I mentioned, with 
regard to the region. I also think you need to be considering 
things as to the ripple effect and the opportunity cost of what 
we are doing in Iraq with regard to our ability to do things in 
Afghanistan and elsewhere in the world to achieve broader macro 
strategic objectives.
    The Chairman. Thank the gentleman. Let me state that we 
will break at 12:25 and reconvene in 2212 at 12:30. Those that 
have not had the opportunity to ask questions in open session 
will be the very first we will call upon to ask questions, Mr. 
Walker, in the closed session, and then we will start all over 
again on the top row.
    Mr. Conaway from Texas.
    Mr. Conaway. Thank you, Mr. Chairman. David, thanks for 
being here. Several times in your comments, you have used two 
descriptors: ``professional'' and ``independent'', for you and 
your agency. And I am in unqualified agreement with both of 
those descriptors. The third one that has been kind of badgered 
about is objectivity. All of us have personal biases that we 
bring to work every single day. And you and I as certified 
public accountants (CPAs) know that one of those tenets is we 
are supposed to be objective with respect to whatever it is we 
are doing.
    Can you comment for us how you and your agency deal with 
personal--I don't have a clue what your personal opinion is as 
to whether what we are doing is working or not; it is none of 
my business, but it shouldn't have an impact on this report. 
Can you help us--two things: one, look at or visit with us 
about how you manage personal biases in a very tough area? And 
two, given the stunning turnaround in al Anbar, and your phrase 
``contextual sophistication'', the lack of reference to that in 
your report, does that reflect a bias that we need to be aware 
of?
    Mr. Walker. Well, first, we have independence and quality 
assurance. On independence we are subject to generally accepted 
auditing standards, which means that institutionally we have to 
be independent and every individual who works on the engagement 
has to be independent. That is different than objectivity and 
personal bias. We then have extensive quality control 
procedures that we put in place to make sure that we have 
checks and balances with regard to not only making sure we have 
independent people assigned to the job, but that we have checks 
and balances to make sure that we are making sure that that 
objectivity is maintained. Because ultimately we want to be 
professional, objective, fact-based, non-partisan, non-
ideological, fair, and balanced. As I mentioned before, Mr. 
Conaway, I made a judgment that in order for us to meet that 
criteria, especially the fair and balanced, we had to use the 
partially met criteria. We had to provide more contextual 
sophistication. With regard to al Anbar, al Anbar is not 
necessarily lending itself toward necessarily one of these 18. 
But I have made a special effort in the hearing yesterday, the 
hearing today, and I am sure I will for the one this afternoon 
and the rest that I am going to have this week, to acknowledge 
that progress has been made in al Anbar and part of Baghdad. I 
am acknowledging that. And that is something that you ought to 
think about. But then we have to come back, is what are we 
trying to achieve, what are our goals, what are our objectives, 
and to what extent is that sustainable and transferable to 
achieve those goals and objectives.
    Mr. Conaway. And so a conscious decision was made to not 
make reference to the turnaround in your report.
    Mr. Walker. There wasn't a conscious decision made. I don't 
know that, for example--in al Anbar, as I said, I think the 
primary thing that has happened is that the tribal leaders made 
a decision that al Qaeda went too far and is now trying to 
fight against al Qaeda. And we are clearly the enemy of al 
Qaeda. So to the extent we can end up joining forces, that is 
great. But al Qaeda was also disproportionately represented in 
that province.
    Mr. Conaway. I am not trying to talk about that, although I 
have seen news reports that at least 20 of those tribal leaders 
gave their lives as a result of making that decision to go 
against al Qaeda.
    One real quick little nitpicking thing. Page 14 of the 
report referenced your recommendations. The Secretary of 
Defense and the heads of other appropriate agencies recommend 
that they provide information to the President on trends in 
sectarian violence. Given the overall comments this morning 
about that issue, maybe you want to revisit, and I don't need a 
comment from you, but maybe you want to revisit that 
recommendation.
    Mr. Walker. I think if you are going to have sectarian 
violence, you need to provide a broader context. But I debate 
whether or not that is the relevant measure.
    Mr. Conaway. But this is your recommendation.
    Mr. Walker. I understand what you are saying.
    Mr. Conaway. Thank you very much.
    Mr. Walker. Thank you very much, Mr. Conaway.
    The Chairman. Thank you. We will ask Mr. Courtney to ask 
his questions now. Then we will adjourn to 2212. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. There has been sort 
of a suggestion here that maybe there was an overstatement of 
some of the negatives and underrepresentation of the positives. 
But I actually, when Congressman Spratt and I were over on our 
trip to Iraq, we visited the joint security station and 
accidentally just sort of stumbled on in the course of a 
conversation with a colonel, who was doing a fabulous job with 
the policing aspect, stumbled onto the fact that only two hours 
of electricity was being supplied to this Sunni neighborhood. 
And the colonel, who again was briefing us on the military 
side, just launched into a tirade about the fact that Shi'a 
neighborhoods were getting lots more hours of electricity, 
which at the time seemed kind of hard to imagine how that could 
possibly occur. But then there was the story that just came out 
about a week or so ago where the Iraq Electricity Minister, 
Kareem Waheed, basically said that switching stations now are 
under the control of militias and--who are literally forcing 
the people operating it to supply different levels of power to 
different sectarian neighborhoods in Baghdad.
    Now, benchmark 13 on sectarian violence and militia 
control, again, only used sort of the top line numbers of 
people being murdered as a measuring stick of the militia 
control. But in fact there are many other ways where it is 
affecting people's daily lives, where the militia control is 
really having a negative impact. Again, that is not even part 
of the scope of your report, because you weren't asked to go 
into that. But I am just curious whether that whole situation, 
which again was sort of revealed a week or so ago, was 
something that GAO looked at.
    Mr. Walker. Well, we do do work with regard to electricity, 
water, oil production, a variety of other issues. As I said, I 
think it is appropriate to consider what are the trends there 
to the effect that it affects the daily lives of Iraqis. I 
think you are raising another good point. Don't just look at 
the totals; look at the distribution. Is there an equitable 
distribution? Because that is another angle where sectarian 
differences can result in material variances.
    Mr. Courtney. And it is also a measuring stick of really 
the central government's ability to control people's----
    Mr. Walker. It is a market test.
    Mr. Courtney. Right. And obviously they can't control it, 
because they are in the hands of militias when the utilities 
are being basically--decisions are being made at gunpoint by 
the militias that are in control. The other question was just 
on the $10 billion that was allocated, appropriated by the 
Iraqi government, and, according to your report, either dribs 
and drabs at best are being spent, but maybe you can just sort 
of embellish on that a little bit.
    Mr. Walker. They have allocated the money, but there is a 
real question as to whether or not it is actually going to be 
spent for a variety of reasons. There have been circumstances 
in the past where the Iraqi government has allocated monies and 
where they haven't been spent. And so merely because you have 
allocated it doesn't mean you are going spend it. And if you do 
spend it, who is going to benefit from it, and what outcome are 
you going to achieve from it? So those are some of the issues 
we were addressing there.
    Mr. Courtney. And is the roadblock within the ministries?
    Mr. Walker. Well, first, they had a huge human capital 
crisis, a huge human capital crisis. They had a brain flight 
out of Iraq. And therefore the capacity to be able to get 
things done is a real problem.
    Second, they have really antiquated systems, information 
systems. They have totally inadequate control, so it is really 
a combination. They didn't have the right type of contracting 
capability, just to be able to get things done. People are 
concerned that they are going to get prosecuted if they don't 
do it by the rules. So there is lots of factors that have led 
to a gap between merely allocating the money and actually 
getting things done.
    Mr. Courtney. It certainly seems like an issue for us next 
week, to be talking to, maybe, Ambassador Crocker about, in 
terms of why the State Department is not giving the support, in 
terms of political support to help design effective 
bureaucracies.
    Mr. Walker. That comes back to the capacity building thing. 
The international community can and should be doing more with 
regard to capacity building, in my view.
    Mr. Courtney. Thank you, Mr. Walker.
    The Chairman. I am going to ask Mr. Hayes to ask a question 
for 30 seconds or make a statement for 30 seconds, and then we 
will take up with Mr. Hayes at Room 2212 in classified session. 
Mr. Hayes, 30 seconds.
    Mr. Hayes. Thank you, Mr. Chairman, Mr. Walker and all your 
staff. Thank you for your hard work. What I would like for you 
to do, based on the conversations today, is to submit a 
recommendation to the chairman and this committee of a good 
objective course to follow as we move forward to accurately 
reflect the desire of this committee on a bipartisan basis to 
protect our military and do everything we can to ensure its 
success.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. And ladies and gentlemen of the 
committee, we will adjourn until 12:30 at 2212.
    Mr. Walker. If I can, Mr. Chairman, just for the record 
thank our very capable staff. They put in an incredible amount 
of time and energy into this, and I want to publicly thank 
them.
    The Chairman. That is very good. Excellent work. Thank you. 
See you at 2212.
    [Whereupon, at 12:28 p.m., the committee was adjourned.]


=======================================================================




                            A P P E N D I X

                           September 5, 2007

=======================================================================



======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 5, 2007

=======================================================================



    [GRAPHIC] [TIFF OMITTED] 37730.001
    
    [GRAPHIC] [TIFF OMITTED] 37730.002
    
    [GRAPHIC] [TIFF OMITTED] 37730.003
    
    [GRAPHIC] [TIFF OMITTED] 37730.004
    
    [GRAPHIC] [TIFF OMITTED] 37730.005
    
    [GRAPHIC] [TIFF OMITTED] 37730.006
    
    [GRAPHIC] [TIFF OMITTED] 37730.007
    
    [GRAPHIC] [TIFF OMITTED] 37730.008
    
    [GRAPHIC] [TIFF OMITTED] 37730.009
    
    [GRAPHIC] [TIFF OMITTED] 37730.010
    
    [GRAPHIC] [TIFF OMITTED] 37730.011
    
    [GRAPHIC] [TIFF OMITTED] 37730.012
    
    [GRAPHIC] [TIFF OMITTED] 37730.013
    
    [GRAPHIC] [TIFF OMITTED] 37730.014
    
    [GRAPHIC] [TIFF OMITTED] 37730.015
    
    [GRAPHIC] [TIFF OMITTED] 37730.016
    
    [GRAPHIC] [TIFF OMITTED] 37730.017
    



=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                           September 5, 2007

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. ELLSWORTH

    Mr. Ellsworth. In your thorough analysis of whether the government 
of Iraq has met the 18 benchmarks contained in Public Law 110-28, you 
came to the determination that Benchmark #6, enacting and implementing 
legislation addressing amnesty, remains unmet. Your assessment for 
Benchmark #6 states, ``There are currently thousands of detainees, 
including over 24,000 held by coalition forces. According to 
multinational force officials, there could be considerably more 
detainees in the future as the Baghdad security plan progresses. The 
Coalition's Task Force 134 is building and expanding prison facilities 
to accommodate additional detainees.''
    Please assess, in your judgment, the current state of the Iraqi 
judicial system in managing detainees. Iraqi Prime Minister Nouri al-
Maliki has promised to make the Iraqi judicial system more independent. 
How has the Central Criminal Court of Iraq functioned in delivering 
legal judgments on insurgent and criminal captives?
    Mr. Walker. GAO has not reviewed the detainee management program or 
the workings of the Central Criminal Court in Iraq.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MURPHY
    Mr. Murphy. Is the President's surge helping or hindering efforts 
to train and equip Iraqi security forces. To what extent has there been 
a diminution of effort in training these forces over the time frame of 
the surge?
    Mr. Walker. GAO is currently conducting work to assess the Iraqi 
security forces; however, it has not evaluated the impact of the surge 
on the U.S. train and equip program. Training and equipping Iraqi 
security forces has been and continues to be a major component of the 
U.S. strategy in Iraq. Since 2003, the U.S. government has provided 
about $20 billion to train and equip Iraqi security forces.
    The administration's September 2007 benchmark assessment states 
that while only a small percentage of battalions are rated as capable 
of completely independent counterinsurgency operations (Operational 
Readiness Assessment Level One), over 75 percent are capable of 
planning, executing, and sustaining operations with some Coalition 
support and making significant contributions to combat operations (that 
is, are rated as Operational Readiness Assessment Level two). The 
administration reports that the greatest constraints on independent 
operations are a shortage of trained leaders and immature logistics 
capability.
    As we reported in March 2007, several conditions continue to 
negatively impact the development of Iraq security forces.\1\ First, 
the Iraqi security forces are not a single unified force with a primary 
mission of countering the insurgency in Iraq. About 40 percent of the 
Iraqi security forces have a primary mission of counterinsurgency--
specifically, the Iraqi army. The other major component--the Iraqi 
police--has civilian law enforcement as its primary mission. Second, 
high rates of absenteeism and poor ministry reporting result in an 
overstatement of the number of Iraqi security forces present for duty. 
Third, sectarian and militia influences have divided the loyalties of 
Iraqi security forces. Numerous U.S. and UN reports have also stated 
that militias still retain significant control or influence over local 
security in parts of Baghdad and other areas of Iraq.
---------------------------------------------------------------------------
    \1\ See GAO, Stabilizing Iraq: Factors Impeding the Development of 
Capable Iraqi Security Forces (GAO-07-612T, March 13, 2007).
---------------------------------------------------------------------------
    In July 2007, the administration reported that militia presence is 
still strong and will likely remain so until the security situation 
begins to stabilize. The report stated that the Iraqi government has 
made unsatisfactory progress toward eliminating
militia control of local security, which continues to negatively affect 
the public perception of the authority and fairness of the Iraqi 
government. Similarly, the September 2007 report by the Independent 
Commission on the Security Forces in Iraq stated that sectarianism in 
the National Police undermines its ability to provide security and 
should be disbanded.

                                  <all>

</pre></body></html>
